                   luation




ARMY   NATIONAL GUARD AND U.S. ARMY RESERVE COMMAND
            SMALL ARMS INDOOR FIRING RANGES



Report Number 98- 170                           June 30, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Copies


  To obtain additional copies of this evaluation report, contact the Secondary
  Reports Distribution Unit of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or FAX (703) 6048932 or visit
  the Inspector General, DOD, Home Page at: WWW.DODIG.OSD.MIL
  Suggestions for Future Evaluations

  To suggest ideas for or to request future evaluations, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                OAIG-AUD (ATTN: APTS Evaluation Suggestions)
                Inspector General, Department of Defense
                400 Army Navy Drive (Room 801)
                Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to Hotline@DODIG.OSD.MUL;
  or by writing to the Defense Hotline, The Pentagon, Washington, D.C.
  20301-1900. The identity of each writer and caller is fully protected.




Acronyms

ARNG                  Army National Guard
EPA                   Environmental Protection Agency
OSHA                  Occupational Safety and Health Administration
USARC                 U. S Army Reserve Command
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                            AfWNGTON,  VlRGlNlA 22202




                                                                          June 30, 1998   ’

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY


SUBJECT: Evaluation Report on Army National Guard and U.S. Army Reserve
         Command Small Arms Indoor Firing Ranges (Report No. 98-170)


        We are providing this report for review and comment. This is the first of two
reports on indoor small arms ranges and was developed in response to a request by the
Director of Facilities, Deputy Assistant Secretary of Defense for Reserve Affairs
(Materiel and Facilities). We considered management comments on a draft of this
report in preparing the final report.

       The Assistant Chief of Staff for Installation Management, Department of the
Army, concurred with all findings as written, but did not comment on the specific
recommendations. DOD Directive 7650.3 requires that all recommendations be
resolved promptly. Therefore, we request the Assistant Chief of Staff for Installation
Management to comment on all recommendations by July 3 1, 1998. Comments must
describe actions taken or planned in response to recommendations and provide the
completion dates of the actions.

        We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Mr. John C. Speedy at (703) 604-8978 (DSN
664-8978), or Ms. Lorretta F. Swanson at (703) 60443971 (DSN 664-8971). See
Appendix E for the report distribution list. The evaluation team members are listed
inside the back cover.




                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing
                       Office of the Inspector General, DOD
Report No. 98-170                                                         June 30, 1998
 (Project No. 7RO-5044.00)

        Army National Guard and U.S. Army Reserve Command
                  Small Arms Indoor Firing Ranges

                                Executive Summary

Introduction. This report responds to a request by the Director of Facilities. Deputy
Assistant Secretary of Defense for Reserve Affairs (Materiel and Facilities). Army
National Guard (ARNG) and U.S. Army Reserve Command (USARC) small arms
range inventories include a combined total of 1,5 19 indoor ranges. The ARNG and
USARC built indoor ranges to support Department of the Army training strategies for
attaining marksmanship goals in support of operational readiness objectives. The
Director of Facilities reported indications that the number of small arms ranges may be
excessive. He stated that management changes may be needed based on current
training requirements and other issues such as increased costs, potential health risks of
exposure to range-generated lead levels. and recent improvements in alternative small
arms training devices and simulators.

This report is the first of two reports on indoor small arms ranges. The second report
will provide the results of an evaluation of new indoor range construction and range
rehabilitation projects.

Evaluation Objectives. Our objective was to evaluate the accuracy and reliability of
indoor firing range inventory data, indoor range use, potential health risks of range-
generated lead, and indoor range fiscal requirements. We also reviewed the adequacy
of the management control program as it applies to those issues.

Evaluation Results. The ARNG and the USARC need to improve management of
their inventories of indoor small arms ranges.

      o The Army, ARNG, and USARC did not have accurate and complete data on
the number, location, safety status, and disposition of all ARNG and USARC small
arms indoor firing ranges. As a result, senior managers in ARNG and USARC may be
hindered from making informed decisions, making best use of resources. and managing
indoor ranges safely (Finding A).

       o Some ARNG and USARC units have used indoor ranges that safety officials
and industrial hygienists designated as unsafe because of lead contamination. ARNG
and USARC range-use policy prohibits using unsafe ranges for any purpose. The lack
of good data on indoor ranges made it impossible to determine how often unauthorized
use of unsafe ranges may have unnecessarily exposed Federal and State personnel and
their families to hazardous levels of lead-dust. (Finding B).

      o Hazardous levels of lead-contaminated dust have migrated from 12 indoor
ranges to other areas of readiness centers. As a result, persons using readiness centers
have an increased potential of both occupational and casual exposure to high lead
concentrations (Finding C).
       o Unsafe ARNG and USARC indoor ranges represent an undefined and
unfunded fiscal requirement for rehabilitation or for decontaminating unsafe ranges for
closure or conversion.  An estimated 982 (65 percent) of 1,519 ARNG and USARC
small arms indoor firing ranges are unsafe and unusable (Finding D).

See Appendix   A for the details of the review of the management   control program.

Summary of Recommendations.          We recommend the development and maintenance
of accurate and reliable inventory and status data on every indoor range and that real
property managers annually verify the accuracy of indoor range data in the Army
Integrated Facility System-Management     and Installation Status Report databases. Also,
we recommend increased command emphasis to field units in communicating the
potential dangers and individual responsibilities and liabilities associated with
unauthorized use of unsafe indoor ranges. We recommend increased management
oversight in enforcing policy prohibiting the use of unsafe ranges and in assuring that
unsafe ranges are not used. Further, we recommend completion of safety inspections
for all indoor ranges to include surveys for lead contamination.     We recommend
completion and issuance of the draft revision of Department of the Army
Regulation 385-63, “Range Safety,” and Pamphlet 385-63, “Range Safety,” as soon as
possible. Range safety policy should include Army standards for testing, cleaning, and
decontaminating indoor ranges. Further, we recommend developing and issuing
guidance that requires safety managers and industrial hygienists to conduct lead-
contamination surveys in areas outside of the immediate range area, and where
necessary, abate lead hazards.

To support senior management decisions on range disposition, we recommend
conducting risk assessments of unsafe ranges. We also recommend the development of
estimates of the fiscal requirements for managing unsafe indoor range rehabilitation and
permanent closure, conversion. sealing as necessary, and a plan of action with
milestones for reducing the number of unsafe ranges. In addition, we recommend
initiating action to identify or develop low-cost technologies and methodologies for
decontaminating    ranges.

Management Comments. The Assistant Chief of Staff for Installation Management
provided a coordinated Army response that concurred with the findings as written.
See Part I for a discussion of management comments and Part III for the complete text
of the management comments.

Evaluation Response. The Assistant Chief of Staff for Installation Management did
not specifically address the report recommendations. We request the Assistant
Chief of Staff for Installation Management to comment on all recommendations by
July 31, 1998.




                                            ii
Table of Contents
Executive Summary                                             i

Part I - Evaluation Results
      Evaluation Background                                  2
      Evaluation Objectives                                  3
      Finding A. Accuracy of Indoor Range Inventory Data     4
      Finding B. Unauthorized Range Use
      Finding C. Lead-Dust Migration Outside Ranges          ::
      Finding D, Unfunded Requirements                       26

Part II - Additional Information
      Appendix A. Evaluation Process                         34
        Scope and Methodology
        Management Control Program Review                    ;:
      Appendix B. Lead Hazards and Standards                 37
      Appendix C. Range Safety Standards                     40
      Appendix D. Case Study of Range Conversion             42
      Appendix E. Report Distribution                        44

Part III - Management Comments
      Assistant Chief of Staff for Installation Management   47
Part I - Evaluation Results
Evaluation Background

     This evaluation responds to a request from the Director of Facilities, Office of
     the Deputy Assistant Secretary of Defense for Reserve Affairs (Materiel and
     Facilities), that we evaluate the small arms range program. The Director
     reported several indications that the large infrastructure of small arms firing
     ranges may be excessive to actual training needs. If so, continued funding of
     the operations and maintenance of some ranges may not be an efficient use of
     limited Reserve Component training funds. Both outdoor and indoor small arms
     ranges support required small arms training. However, this report deals only
     with indoor small arms firing ranges.

     As the first of two reports on indoor small arms ranges, this report provides an
     evaluation of the accuracy and reliability of indoor range inventory data, indoor
     range use, potential health risks of range-generated lead, and indoor range fiscal
     requirements. The second report will evaluate new indoor range construction
     and range rehabilitation projects.

     The Federal Government provides all funds for U.S. Army Reserve Command
     (USARC) indoor range construction, operations, and maintenance. However,
     individual States and the Federal Government share in funding Army National
     Guard (ARNG) range construction in armories, with Federal Operations and
     Maintenance funds used only for training related to the Federal mission.

     The ARNG and USARC use small arms range infrastructures as part of the
     Army training strategy for achieving marksmanship goals and standards that
     support operational readiness. ARNG and USARC units use indoor ranges for
     small arms marksmanship training when outdoor ranges are too far away or
     when they are unavailable.

     Approximately 15 19 indoor ranges are in the combined inventories of the
     ARNG and USARC. Officials m the Office of the Chief of Safety and
     Occupational Health Division, ARNG, estimate a small arms indoor range
     inventory of 1,125 ranges. ‘Officials in the Office of the Deputy Chief of Staff,
     Engineers, USARC, report an indoor small arms range inventory of
     approximately 394 ranges. In the past, ARNG and USARC units used indoor
     ranges extensively. However. the following three factors are now driving
     changes in marksmanship training:
           l   reductions in force structure and associated training,
           a    new technology improvements in small arms simulators and alternative
               training devices, and




                                          2
          l   growing concern for and awareness of the safety and health risks
              associated with exposure to the hazardous lead-dust levels generated at
              many live-fire ranges.

     The implications of these factors are having an impact on both the ARNG and
     USARC indoor range infrastructures. For example, some units are not using
     indoor ranges for live-fire training because the ranges are not equipped to meet
     occupational health and safety standards. According to current estimates by
     ARNG safety officials, 2 15 of the approximately 1,125 ARNG indoor ranges
     are assumed to be “safe” for live-fire training. US ARC Headquarters personnel
     believe that 119 of the approximately 394 Reserve indoor ranges are safe for
     live-fire training.



Evaluation Objectives

     Our objective was to evaluate the accuracy and reliability of indoor range
     inventory data, indoor range use. potential health risks of range-generated lead,
     and indoor range fiscal requirements. The report also addresses the
     management control program as it applies to those issues.

     See Appendix A for a discussion of the evaluation scope and methodology and
     the management control program.




                                          3
            Finding A. Accuracy of Indoor Range
            Inventory Data
            The Army, ARNG, and USARC did not have accurate and complete
            data on the number, location, safety status, and disposition of all ARNG
            and USARC small arms indoor firing ranges. ARNG and USARC
            management controls did not ensure that National Guard State Area
            Commands and Reserve Regional Support Commands provided the data
            in accordance with the requirements of DOD Instruction 4165.14, Army
            Regulation 405-45, and other guidance. As a result, senior managers in
            ARNG and USARC may be hindered from making informed decisions,
            making best use of resources, and managing indoor ranges safely.


Requirements      for Range Inventory Data

     The Army created the Army Integrated Facility System-Management database to
     comply with the provisions of DOD Instruction 4165.14, “Inventory of Military
     Real Property, n December 2 1, 1966, and Army Regulation 405-45, “Inventory
     of Army Military Real Property, ” March 18, 1977. The latter regulation and
     Office of the Assistant Chief of Staff for Installation Management, Plans and
     Operations Division Memorandum, “Interim Policy and Procedure Changes to
     Army Regulation 40545, ‘Inventory of Arrny Mthtary Real Property,‘”
     April 15, 1997, require that the commanders of major Army commands “ensure
     the accuracy, completeness and timeliness of real property information, n on
     federally owned property. As a result, ARNG and USARC are required to
     report real property information on federally owned facilities for inclusion in the
     Army Integrated Facility System-Management database.

     The Army reelation and policy memorandum also require ARNG and USARC
     to identify all federally owned facilities and to report all functions performed at
     those facilities that occupy at least 1,000 square feet of contiguous space within
     a multipurpose building that is located on Federal property. Any functional use
     that takes less than 1,000 square feet of space must also be reported separately if
     the installation or headquarters considers it to be important to real property
     management. (The standard ARNG or USARC indoor range occupies more
     than 1,000 square feet.) The reporting requirement is also stated in Army
     Regulation 415-28, “Real Property Category Codes,” October 10, 1996.

     The National Guard State Area Commands are also required to identify and
     report State-owned facilities to the Chief, National Guard Bureau. Information
     on State-owned real property is not included in the Army Integrated Facility
     System-Management database. The National Guard Bureau has a separate real
     property maintenance information management system, called the Desktop
     Resource for Real Property system, for both federally owned and State-owned
     property.




                                          4
                            Finding A. Accuracy of Indoor Range Inventory Data


    Headquarters, Department of the Army, Assistant Chief of Staff for Installation
    Management, DAIM-FDF-Memorandum (l-lq), December 4, 1995, established
    Army policy for the Installation Status Report Program. The Army Installation
    Status Report database provides commanders of installations and major Army
    commands. including ARNG and USARC, with key elements of the status of
    facilities at an installation. Information on the status of real property facilities,
    including the status of indoor ranges for both federally owned and State-owned
    facilities, are supposed to be included in the Installation Status Report.


Adequacy of Range Inventory Data

    Officials in the Office of the Army Assistant Chief of Staff, Installation
    Management, as well as officials in the ARNG and USARC, did not have
    accurate and complete data on ARNG and USARC indoor small arms ranges.
    Safety, industrial hygiene, and occupational health managers do not have
    sufficient information to know the location and safety status of all indoor
    ranges. We requested data from the Director of Facilities, ARNG, and the
    Office of the Chief, USARC, on their respective Reserve Component’s small
    arms ranges. The ARNG responded to the request for indoor range data by
    stating that, ‘The ARNG did not maintain data on indoor ranges. * The
    USARC responded with a list of indoor ranges, but it said that the list
    represented only an approximate inventory and could not be certified as accurate
    and complete. Personnel in both the ARNG and USARC were helpful in
    collecting the data needed for the evaluation.

    Much of the data that were requested on federally owned ranges should have
    been available from the Army Integrated Facility System-Management database.
    Information on the status of both federally owned and State owned ranges
    should have been available through the Army Installation Status Report
    database. However, the databases did not contain accurate or complete data on
    ARNG and USARC indoor ranges. ARNG and USARC management controls
    did not ensure that National Guard State Area Commands and Reserve Regional
    Support Commands provided the data in accordance with the requirements of
    DOD Instruction 4165.14, Army Regulation 405-45, and other guidance.

    ARNG Range Inventory Data.         ARNG management controls did not require
    the National Guard State Area Commands to provide accurate and complete
    information on all indoor firing ranges. In January 1998, the Army Integrated
    Facilities System-Management database contained only four entries for federally
    owned ARNG range facilities. The ARNG estimates that it has approximately
    1,125 ARNG indoor ranges, many of which are State owned. ARNG officials
    did not report how many of the 1,125 indoor ranges were federally owned or
    how many ranges should have been in the database.

    A query of the Army Installation Status Report database showed that it
    contained status information on only 36 of an estimated 1,125 indoor ranges and
    that 21 of the 36 ranges reportedly had passed current safety inspections.
    ARNG officials acknowledged that they did not require the maintenance and
    reporting of indoor range status.



                                          5
Finding A. Accuracy of Indoor Range Inventory Data


            Desktop Resource for Real Property. The ARNG uses the Desktop
      Resource for Real Property system for collecting and maintaining source data on
      real property inventory. The ARNG extracts inventory data on federally owned
      facilities from the ARNG Desktop Resource for Real Property system and
      forwards the data to the Army. The Army enters those records in the Army
      Integrated Facility System-Management database. which is a property
      management system and database.

      The ARNG also uses the Desktop Resource for Real Property system to collect
      and provide data on State-owned and federally owned real property for entry in
      the Army Installation Status Report database. The property system provides
      information for internal ARNG management as well.

      When ARNG officials queried the Desktop Resource for Real Property system
      during the evaluation, they found that it contained data on only 56 of an
      estimated 1,125 ARNG indoor ranges. In addition, it contained data from only
      10 of the 50 states, 3 territories, and the District of Columbia, which are
      covered by the system. Of the 56 ranges, the State of Maryland reported 30
      ranges. None of the 17 ranges in Puerto Rico that were listed in the Army
      Installation Status Report appeared in the ARNG Desktop Resource for Real
      Property database.

          Range Data Impacts Funding. The ARNG forwards requests for
      inventory and status data on indoor ranges to each National Guard State Area
      Command and relies on each state to respond in a timely and accurate manner.
      The ARNG does not regularly compile, maintain, or verify data on indoor range
      inventories and status. ARING used that process to respond to a data request
      from the Deputy Assistant Secretary of Defense (Guard and Reserve Materiel
      and Facilities) (now the Deputy Assistant Secretary of Defense for Reserve
      Affairs [Materiel and Facilities]) in 1987 and from the Inspector General, DOD,
      in 1997. Information received each time was incomplete and unverifiable. The
      lack of accurate and reliable ARNG indoor range inventory data is an ongoing
      problem in the DOD resourcing cycle, dating back to at least 1985.

      In 1985, the ARNG began requesting funds to upgrade indoor ranges. Budget
      requests submitted in FY 1985 included $120 million for range upgrades.
      Again, in FY 1986, the ARNG requested $80 million for range upgrades.
      However, the Army Construction Requirement Review Committee rejected both
      requests because ARNG supporting data did not identify the number or location
      of the indoor ranges planned for upgrade. During July and November 1986, the
      ARNG requested that the National Guard State Area Commands provide data on
      the number of closed ranges and the cost to upgrade them.

       In June 1987, the Deputy Assistant Secretary of Defense for Reserve Affairs
       (Materiel and Facilities), in conjunction with the Deputy Assistant Secretary of
       Defense for Reserve Affairs (Readiness Training), requested range inventory
       and related data to use in reviewing policy on indoor small arms ranges. They
       also requested that each Reserve Component provide staff briefings on indoor
       and outdoor range requirements. Staff briefings included information on range




                                           6
                                   Finding A. Accuracy of Indoor Range Inventory                    Data


       justification and type; the quality of training; range availability; Occupational
       Safeq and Health Administration (OSHA) problems; safety issues: and cost
       data.

        In response to the request, the ARNG reported that, as of July 20, 1987, it had
        identified 1,600 ARNG indoor ranges. The National Guard Bureau,
        Operations, Training, and Readiness Directorate, Resource Management
        Division, reported that approximately 1,100 ranges were either closed or
        restricted to limited use because they could not fully comply with OSHA and
        other safety standards or because they were no longer needed.

        ARNG officials interviewed during the evaluation did not maintain a current
        indoor range inventory. They did not have data to verify the accuracy or the
        source of the 1,600 ranges reported in 1987, but stated that they did not believe
        that they still had 1,600 indoor ranges.

             Range Data from Regional Hygiene Offices. The Chief, Industrial
        Hygiene Branch, ARNG Safety and Occupational Health Division, initiated the
        collection of new data on ARNG indoor ranges specifically for this evaluation.
        On October 2, 1997, he provided a list of indoor ranges that was based on
        information received through the three regional industrial hygiene offices.
        Although the indoor range list did not contain all data that we requested, it did
        contain the location and status of approximately 1,125 indoor ranges in 50 of
        the 54 States and Territories that have ARNG facilities. According to the status
        data, 867 (77 percent) of the indoor ranges on the list were reportedly in an
        inactive or closed status.

        The Chief, Industrial Hygiene Branch, stated that all ranges on the inventory list
        that were designated as inactive or closed could be assumed “unsafe” for live-
        fire training. The Chief stated that the ranges are classified as unsafe or
        restricted to limited use by ARNG industrial hygienists as the result of visits
        conducted in cooperation with State safety officials. Ranges are classified as
        unsafe primarily because they cannot be operated in compliance with Army.
        OSHA, and National Institute of Occupational Safety and Health safety
        standards, especially with those standards concerning exposure to lead
        contaminants generated by live fire. See Appendix B for a detailed discussion
        of specific lead standards.

        ARNG officials did not have suffkient information to explain the difference in
        total range numbers between those reported in 1987 (1,600) and those reported
        in 1997 (1,125). They stated that many indoor ranges are not currently being
        used for live firing, and that the closure of ranges in State-owned readiness
        centers is a State function that is not reported to ARNG Headquarters staff.

        Officials in the ARNG Installations Division stated that the Desktop Resource
        for Real Property database should have accurate information on all ARNG


*Memorandum from the Deputy Assistant Secretary of Defense (Guard and Reserve Materiel and
 Facilities). now the Deputy Assistant Secretary of Defense for Reserve Affairs (Materiel and Facilities),
 for the Assistant Secretary of the Army (Installations and Logistics) and the Assistant Secretary of the
 Navy (Supply and Logistics); Subject: *Reserve Facilities,” June 8, 1987.
Finding A; Accuracy of Indoor Range Inventory Data


      indoor ranges. Further, the database could be used to collect and report
      accurate indoor range information for inclusion in the Army Integrated Facility
      System-Management and Installation Status Report databases. Range
      information could also include the safety status and condition of indoor ranges.

      USARC Range Inventory Data. USARC management controls did not ensure
      that the 10 Reserve Regional Support Commands provided accurate and
      complete data on all indoor firing ranges. In January 1998, a query of the
      Integrated Facilities System-Management database showed that the database
      contained only 11 of the estimated 394 indoor ranges in the USARC indoor
      range inventory. A similar query of the Army Installation Status Report
      database showed it contained only 8 of the estimated 394 USARC indoor
      ranges. The Army databases should have contained information on all USARC
      indoor ranges.

           Regional Support Command Range Data. The USARC relies on its 10
      Reserve Regional Support Commands to provide accurate and complete
      inventory data for entry in the Army Integrated Facilities System-Management
      and the Installation Status Report. Each of the Reserve Regional Support
      Commands reportedly has a stand-alone computer system for recording the
      required information on Real Property facilities. The data are downloaded from
      the Reserve systems and sent via computer diskette to the Army Center for
      Public Works for entry into the Army databases. The data are sent directly to
      the Center without first going to the Headquarters, USARC, for review or
      verification. However, the USARC does have access to the data for review
      after they are entered in the Army real property and installation status systems.

      In trying to validate the USARC inventory list provided in August 1997, we
      identified discrepancies in the numbers of Reserve ranges reported since 1987.
      In 1987, USARC responded to a request from the Deputy Assistant Secretary of
      Defense for Reserve Affairs (Materiel and Facilities) for information on indoor
      ranges. The response reported 390 indoor ranges in USARC readiness centers.
      According to the report, 74 ranges had been permanently closed, leaving 3 16
      ranges that were apparently still in operation.

      In response to our July 1997 request, USARC officials provided an inventory
      list containing 394 indoor ranges, with 160 of those ranges noted as converted
      to alternative uses. The inventory list also noted an additional 115 ranges as
      unsafe, bringing the estimated total of unsafe and converted ranges to 275, or
      70 percent of 394 indoor ranges. A review of the inventory list showed that
      several of the ranges listed as active were actually closed. One range, shown on
      the inventory list as converted to other uses, had been transferred to the local
      government, and ranges listed as unsafe actually had been converted to other
      uses. USARC personnel stated that the inventory data represented only
      approximate information.

           Range Management New to USARC. USARC officials stated that the
      command assumed management responsibility for its indoor firing ranges and
      other facilities in 1995, Before 1995, the Army Installation real property
      managers had responsibility for the accuracy of inventory data for USARC
      ranges located on, or supported by, their respective installations. For most
      locations, USARC real property managers received no DOD Form 1354,

                                           8
                           Finding A. Accuracy of Indoor Range Inventory Data


    “Transfer and Acceptance of Military Real Property,” or other evidence of a
    physical inventory, at the time of transfer in 1995. USARC officials issued a
    standard operating procedure on real property in 1997 and reported that they
    understood the need for developing accurate inventory data. USARC officials
    have started a comprehensive effort to conduct physical inventories and to
    collect and validate inventory data, which they estimate will take 1 to 2 years to
    complete. The managers also need to verify the accuracy and completeness of
    the data each year.


Effect of Present Range Inventory Data Reporting

     The ARNG and the USARC have developed comprehensive range inventory and
     status data on a situational basis, and not as part of the current Army real
     property management systems. As a result, senior managers in ARNG and
     USARC may be hindered from making informed decisions, making best use of
     resources, and managing indoor ranges safely. Training managers, facility
     engineers, and other ARNG and USARC managers should have current,
     accurate, and complete information on their indoor range infrastructure when
     making funding decisions for new construction or rehabilitation.


Recommendations         for Corrective Action

     A. We recommend     that the Director, Army National Guard, and the Chief,
     U. S . Army Reserve Command: require:

          1. All National Guard State Area Commands and all Army Reserve
     Regional Support Commands to collect and report accurate inventory and status
     data in accordance with Army Regulation 405-45, “Inventory of Army Military
     Real Property, n March 18, 1977, and Headquarters, Department of the Army,
     Assistant Chief of Staff for Installation Management, DAIM-FDF-
     Memorandum (1-lq), “Installation Status Report Program,” December 4, 1995.
     to include the location, safety status, and disposition of every indoor range.

          2. The Army National Guard and the U.S. Army Reserve Command real
     property managers to annually review indoor range inventory and status data
     collected by the National Guard State Area Commands and the Reserve
     Regional Support Commands.

          3. The Army National Guard and the U.S. Army Reserve Command real
     property managers to annually verify that the Army Integrated Facility System-
     Management and the Installation Status Report databases contain accurate and
     complete indoor range data.




                                         9
Finding A. Accuracy of Indoor Range Inventory Data


Management       Comments

      The Assistant Chief of Staff for Installation Management, Department of the
      Army, concurred with the finding as written. He noted that State-owned
      National Guard facilities are not subject to Federal and U.S. Army reporting
      requirements and are not included in the Army’s Real Property inventory.


Evaluation Response

      The comments from the Assistant Chief of Staff for Installation Management,
      Department of the Army, did not specifically address the recommendations.
      We revised Recommendation A. 1. to reference the Army Installation Status
      Report Program, which requires the collection and reporting of data on all
      Army National Guard facilities, regardless of whether they are Federal or State-
      owned. In response to the final report, we request that the Assistant Chief of
      Staff for Installation Management provide comments on the recommendations.




                                          10
            Finding B. Unauthorized                         Range Use
            Some ARNG and USARC units have used indoor ranges that safety
            officials and industrial hygienists designated as unsafe because of lead
            contamination.    ARNG and USARC range-use policy prohibits using
            unsafe ranges for any purpose. Reasons for noncompliance with range-
            use policy include insufficient management oversight, local need for
            storage and training space, and inadequate range safety guidance. The
            lack of good data on the indoor ranges made it impossible to determine
            how often unauthorized use of unsafe ranges may have unnecessarily
            exposed Federal and State personnel and their families to hazardous
            levels of lead-dust.


Indoor Range Safety Standards and Status

     Health and Safety Regulations.      DOD Instruction 6055.5, “Industrial Hygiene
     and Occupational Health, n January 10, 1989, (change 1, May 6, 1996) states
     that it is DOD policy to provide employee a healthful work environment, free
     from recognized chemical, physical, or biological hazards that are likely to
     cause illness or death. Consistent, meaningful DOD occupational health and
     safety and environmental surveillance programs are designed to ensure that
     controls adequately protect the health of DOD personnel. With certain
     exceptions, DOD organizations must comply with safety and health regulations
     administered by the Occupational Safety and Health Administration (OSHA).
     With certain exceptions, they must also comply with all environmental
     regulations that the Environmental Protection Agency (EPA) and State and local
     environmental regulators administer.

     Airborne lead contamination, occurring as a by-product of indoor live firing, is
     a major concern in maintaining and decontaminating indoor ranges and in
     determining whether an indoor range is safe. See Appendix B for a detailed
     discussion of lead hazards and standards.

     Ravge Safety Status and Use Determined by Inspections. Federal industrial
     hygiene officials and State and Territorial safety officials and occupational
     health nurses schedule periodic inspections to identify and correct range safety
     and health problems. Safety and industrial hygiene officials determine the
     safety status of an indoor range by inspections, and they classify indoor ranges
     as safe for use, safe for limited use, or unsafe, based primarily on the results of
     air and wipe sampling data collected during inspections.

          Safe Ranges. Ranges are considered safe if they have passed a current
     safety inspection. Safe ranges meet established safety standards such as
     adeauate ventilation svstems. bullet stops. minimum firing lane width, and
     desiinated baffling. in addition, safe &.&es meet star&&s for periodic
     cleaning based on hours of use.

          Ranges Restricted to Limited Use. Ranges that+do meet prescribed
     standards are restricted to limited use or are closed. ARNG and USARC units


                                          11
Finding B. Unauthorized    Range Use


      can use the ranges only under conditions in which they can control personnel
      exposure limits for intermittent lead. For example, a safe range must have
      airflow from behind the firing line toward the bullet trap. If the average airflow
      at the firing line is not at least 50 feet per minute, personnel using the range
      have a greater risk of exposure to lead dust. By limiting firing times, range
      personnel can control exposure to lead-dust.

           Unsafe Ranges. Unsafe ranges are those that do not meet minimum
      occupational safety and health or administrative standards. USARC, ARNG,
      and State safety offices have recommended that many indoor ranges be closed
      because hazardous amounts of airborne lead and lead particles are present on
      range equipment and other surfaces in the ranges, and because of inadequate
      ventilation systems and other health and safety problems. When a range is
      classified as unsafe, it should be closed to prevent personnel being exposed to
      potential lead hazards and to contain and limit lead contamination on clothing
      and items that are transported to workers’ homes. As a result, unsafe ranges
      cannot be used for any purpose until they have been decontaminated.


Safety of Ranges Used

      Some ARNG and USARC personnel have used unsafe ranges in violation of
      ARNG and USARC policy and regulations. They use some ranges for storage,
      and they permanently converted some to other uses such as storage and office
      space before testing them for lead contamination and decontaminating them.
      Using unsafe indoor ranges risks the unnecessary exposure of some State and
      Federal personnel and their families to hazardous levels of lead in a form easily
      inhaled or ingested. Using unsafe ranges may also expose members of the local
      community to lead hazards during authorized social events, even when ranges
      have been inactive for years.

      Use of Unsafe ARNG Ranges.          The AFWG Chief, Industrial Hygiene Branch,
      compiled an inventory of small arms indoor-firing ranges from information that
      State safety officials reported in the fall of 1997. Although all States did not
      report, the inventory listed l_ 125 indoor ranges and included a description of
      each range as closed, inactive, restricted to limited use, under construction,
      abated, never used, and unknown. The ARNG Chief considered all ranges
      described as closed or inactive to be unsafe. On that basis, 867 ranges, or
      77 percent of the approximately 1,125 indoor ranges, are unsafe.

      On August 21, 1992, an ARNG industrial hygienist issued an information paper
      on the UConversion of Indoor Firing Ranges lo Other Uses,” warning about the
      dangers and risk of lead exposure and intoxication. The paper provided
      guidance for converting lead-contaminated indoor ranges to other uses. It
      warned as follows:

                 The potential for lead intoxication at indoor firing ranges is wcll-
                 documented. Currently. many lead-contaminated indoor firing ranges
                 are actively being used as storage arcas for local community food
                 drives, equipment. office supplies, or as maintenance activities.
                 Allowing instances such as thcsc to occur invites potential future

                                             12
                                              Finding B. Unauthorized Range Use


          liability as each time an individual enters a lead-contaminated range.
          the air stream produced causes the leaddust to become airborne and
          redistributed on the individual’s clothing or shoes. The lead-dust can
          then be tracked from the range to the adjacent offices and break rooms
          and eventually be ingested or inhaled through contact with food, drink.
          or smoking. This is alarming because of the number of inactive indoor
          firing ranges in the Army National Guard. Individuals may be
          unknowingly taking home lead-dust on their clothes and equipment
          and exposing their family members. . .

During the evaluation, safety, environment, and contracting personnel reported
specific instances in which ARNG and USARC personnel used unsafe ranges
for storage. offices, classrooms, and exercise rooms. For example, an
inspection report that ARNG, Industrial Hygiene Office, Region North, filed on
the Ruhl Armory in Towson, Maryland, on June 15, 1994, cited the range as
unsafe for firing. ARNG inspectors found lockers and exercise equipment
stored in the range area that needed cleaning and removal.

In 1995, ARNG personnel told inspectors that they locked the Ruhl Armory
range door to prevent people from entering. Nonetheless, the inspector found
indications of recent range use. Exercise equipment, tables, and lockers
remained stored in the range. While inspectors were on-site, two people used
the exercise equipment stored in the range. The lockers looked as if ARNG
personnel were using them to store personal belongings. Inspectors also found
freshly painted walls and evidence of recent firing.

Wipe samples taken in the area during the 1995 inspection showed evidence of
residual contamination. Very high lead concentrations remained on surfaces
throughout the range, including the exercise equipment and the lockers. Lead
concentration levels ranged from 28 micrograms per square foot to 48,800
micrograms per square foot. National Guard Pamphlet 385-16 states that lead
levels above 200 micrograms are a potential health hazard.

During the course of the evaluation, ARNG took steps to address unsafe range
use and improper conversion. On October 14, 1997, the ARNG Chief,
Industrial Hygiene Branch, issued a letter for all State, Territorial, and District
of Columbia safety managers. He wrote, “Many indoor fig            ranges converted
to offices, classrooms, physical fitness areas, and other uses have not been
properly decontaminated. n The Chief stressed the need for reevaluating lead
hazards in converted ranges. He also recommended that State, Territorial. and
District of Columbia safety managers develop procedures to guide future range
conversions, to protect workers and their families from lead poisoning, and to
minimize the liability of senior ARNG personnel.

While ARNG personnel acknowledge some unsafe range use, they could not
provide conclusive data on how often it occurs or how many unsafe ranges are
involved. Because no surveillance program for casual or unauthorized users of
indoor ranges exists, we could not determine whether unauthorized use is
affecting the health and safety of exposed personnel and their families.

Use of Unsafe USARC Ranges. USARC officials report that they have not
completed a survey of indoor ranges. Before 1995. Army installations

                                        13
Finding B. Unauthorized Range Use


      accounted for Army Reserve real property, including indoor ranges. The Army
      began transferring real property accountability to the USARC in 1995 and
      completed the transfer in 1997. However, the Army did not provide all the
      documents on indoor ranges. USARC officials said that Army installation real
      property managers did not provide records on all range safety inspections
      to the Reserve Regional Support Commands. As a result, it will take from
      1 to 2 years to conduct baseline safety inspections and to confirm the status of
      all indoor ranges.

      The USARC reported that, based on assessments and safety inspections that the
      Army conducted before 1995, approximately 115 ranges, or 29 percent of
      approximately 394 Reserve ranges, are inactive and unsafe. USARC officials
      believe that some Reserve personnel use unsafe ranges, and that some Reserve
      personnel convert unsafe ranges without first abating the lead hazards.
      However, they could not provide accurate data to support an assessment of the
      extent of the problem. The USARC is trying to identify those ranges and to
      decontaminate them as funding becomes available. USARC recognizes the
      value of range space and wants to decontaminate the space so that it can be put
      to other uses, such as for small arms simulator training rooms.

      The USARC reported 160 converted ranges. Reserve units convert ranges for
      many other uses such as for chapels, assembly halls, classified work areas,
      supply rooms, administrative purposes, offices, storage areas, and, in one case.
      a mess hall. In trying to assess unsafe range use, we reviewed 11 contracts for
      closing indoor ranges managed by the 99th Reserve Regional Support
      Command. Additionally. we reviewed data on specific ranges.

           Lead Contamination Survey Report Reviewed. A Lead Contamination
      Survey Report contains summaries of the results of lead investigations
      conducted at 11 USARC ranges to determine the degree of lead contamination.
      Lead investigations were conducted at ranges that were scheduled for conversion
      to other uses. They were also done to identify procedures necessary to clean the
      ranges to make the space usable.

           Lead contamination investigations completed on 11 ranges in 1997 show
      reservists using 6 of the 11 ranges as supply rooms or offices without first
      decontaminating them. For example, the Norfolk U.S. Army Reserve Center.
      Norfolk, Virginia, had been shut down and abandoned. At the time of the
      survey, inspectors could not determine when the range became inactive.
      Further, inspectors found reservists using the range to store supplies such as
      clothing, bedrolls, cots, and other similar items. At the time of the lead
      investigation, inspectors found at least 90 percent of the furniture already
      removed. Wipe sample results showed residual lead concentrations ranging
      from 40 to 14,000 micrograms per square foot. Inspectors could not determine
      whether the furniture had been cleaned and decontaminated before it was
      removed.

      The indoor firing range in the 1st Lt. Jimmie T. Monteith U.S. Army Reserve
      Center, Richmond, Virginia, operated from 1968 through 1970. After 1970,
      the range became a supply room. In 1995, inspectors found that the end of the
      range room containing the firing line was already renovated. The renovation
      included retiling the floor. repaneling walls, and installing a drop ceiling. The

                                          14
                                         Finding B. Unauthorized Range Use


renovation did not include the rest of the range. The Center did not provide
records on the removal and disposal of the bullet deflector panel and an exhaust
fan, which occurred sometime after 1970.

The results of bulk samples taken by the inspectors in 1995 revealed
lead-containing bulk material (sand) present in concentrations greater
than the EPA criterion of 5,000 milligrams per kilogram. Concentrations
higher than 5,000 milligrams per kilogram constitute a lead hazard. Three
samples of the sand and debris in the bullet trap contained total lead
concentrations of 92,0001 ~150,000, and 49,000 milligrams per kilogram. Wipe
samples taken from range surfaces also showed lead-dust or debris greater than
200 micrograms per square foot, which is the standard established for initiating
decontamination and abatement actions.

At the Prince George’s County U.S. Army Reserve Center, Riverdale,
Maryland, industrial hygienists conducting a lead investigation found reservists
using the former firing range as a storage facility. In operation from the 1950s
to the late 198Os, the range underwent lead and asbestos abatement in 1989. In
1995, wipe sample results showed lead concentrations ranging from fewer than
40 micrograms per square foot to 82,000 micrograms per square foot.

The indoor firing range in the Major General Albert C. Lieber U.S. Army
Reserve Center, Alexandria, Virginia, was inactive for 10 to 15 years before its
conversion to an office and a supply room. Contractor personnel found
reservists using the range space for a supply room. Reserve Center personnel
converted the range without first abating and cleaning it. Contractor personnel
found “bullet slugs” still in the sandpit. In 1995, the results of surface lead-
wipe samples ranged from fewer than 40 to 110,000 micrograms per square
foot.

At the Southern Maryland Memorial U.S. Army Reserve Center, Camp
Springs, Maryland, reservists closed the indoor firing range and turned it into a
print shop in 1980. At the time of the lead investigation, industrial hygienists
found the 12th Psychological Operations Command using the range as office
space. The most recent renovation of the space occurred just 2 months before
the 1995 lead investigation. Two personnel worked in the area on a daily basis.

Personnel working for the 12th Psychological Operations Command informed
inspectors that, on the weekend of April 22, 1995, reservists filled their
backpacks with sand from the bullet trap, in preparation for a hike. The same
personnel reported that, “Not only did this action fill the room with dust
(enough dust that two workers had to leave the room), but the soldiers also
tracked the sand onto the floor of the office and possibly into the hallway. ”
Inspectors reported, “This action may explain the high results of lead residue
prevalent throughout the office and range. ” The results of wipe samples
showed lead concentrations ranging from 52 to 420,000 micrograms per square
foot in the range and adjacent areas. Tests of the remaining sand and debris
showed lead concentrations of 90,000 milligrams per kilogram, 28,000
milligrams per kilogram, and 25,000 milligrams per kilogram.




                                    15
Finding B. Unauthorized Range Use


      Reservists also converted the indoor range in the Maus-Warfield U.S. Army
      Reserve Center, Rockville, Maryland, before decontaminating it. They
      converted it to a library, which reservists use only on weekends. Inspectors
      reported that the range appeared to have been abated at one time because they
      found the bullet trap and the bullet deflector panel cleaned and painted. In
      1995, inspectors reported that eight out of nine wipe samples taken in the range
      showed lead-dust concentrations above the 200 micrograms per square foot. A
      wipe sample taken from the floor of the storage room next to the range showed
      lead concentrations as high as 13,000 micrograms per square foot. In the range
      area, wipe sample results ranged from as low as 92 micrograms to as high as
      3,200 micrograms per square foot for a sample taken from the floor of the
      sandpit.

           Range Conversion Documents Reviewed. We attempted to review data
      on eight specific ranges that USARC reported had been converted to other uses.
      We reviewed ranges converted to a mess hall, a classroom, a supply room, an
      exercise room, and a chapel. We requested documents showing that each range
      was cleaned before it was converted, showing to what standard it was cleaned,
      and certifying that lead hazards had been cleaned to established standards.
      Although the documentation was limited, it showed that reservists used some of
      the ranges for other purposes before properly cleaning them.

      The General Andrew Pickens U.S. Army Reserve Center, Clemson, South
      Carolina, 81st Reserve Regional Support Command, reportedly converted its
      range to a mess hall. Because of the danger of lead ingestion, we wanted to
      confirm range decontamination before conversion. In responding to our
      inquiry, Center personnel corrected the original usage report, stating that they
      had converted the range to an assembly hall, not a mess hall.

      On March 3 ~ 1997, contractor personnel inspected the range before performing
      abatement activities and found evidence that Center personnel were using the
      range for a snack area as well as an assembly hall. They found “a water
      fountain, vending machine, and a soda machine located in the area to be
      abated. *) During cleaning, those items remained in the area. The contractor
      covered those items with a polyethylene sheeting during the final clean up.

      The contractor also found contaminated soil and hazardous lead waste in the
      range area that had to be treated and disposed of in accordance with
      environmental regulations. In addition, the contractor reported, “The assembly
      hall abated contained no features commonly associated with a typical firing
      range, that is, deflector panels, firing position stands, etc.” We could not
      determine whether those items had been removed previously or had never been
      a part of the range equipment. Workers completed final closure and waste
      removal on March 10, 1997.

      In 1960, closure of the indoor range in the Henry A. Goss U.S. Army Reserve
      Center, Grand Rapids, Michigan, 88th Reserve Regional Support Command,
      led to its being used as a storage and supply room. According to the
      88th Reserve Regional Support Command, the range area had never been
      cleaned. nor had any formal request been submitted to close or convert the
      range.


                                           16
                                               Finding B. Unauthorized Range Use


    The USARC reported that documents on range activities at the Tucson U.S.
    Army Reserve Center, Tucson, Arizona,       63rd Reserve Regional Support
    Command, were “no longer available.” The USARC provided no cleaning and
    decontamination certifications or safety inspection reports. The only document
    on the indoor range was a letter written by the Chief. Environmental Division,
    for the Army Intelligence Center and Fort Huachuca, Arizona. The Chief wrote
    the letter to support_a retirement physical and stated that the Tucson U.S.
    Reserve Center had closed its indoor range. The range was closed in the early
    1970s and converted to administrative space in 1993.

    The Chief reported that, “At one time [before it closed], the Center contained a
    firing range. Contents of lead in the air during the operation of the firing range
    are unknown. The range was converted to offices and it is our understanding
    that the area was thoroughly cleaned of any remaining dust prior to use. ** The
    Chief received the information from ‘knowledge of personnel that visited the
    center in recent years and from surveys completed.” However, the USARC did
    not provide copies of surveys or documentation of abatement activity. As a
    result, we could not verify whether the range had been cleaned and
    decontaminated to standard before the Reserve personnel converted it to offices.

    The Sverdrup U.S. Army Reserve Center, St. Louis, Missouri, 89th Reserve
    Regional Support Command, and the Eldorado Army Reserve Center,
    Eldorado, Arkansas, 90th Reserve Regional Support Command, provided
    documents showing that they cleaned and abated their indoor ranges before
    converting them to other uses. The Finkbeiner U.S. Army Reserve Center,
    Little Rock, Arkansas, 90th Reserve Regional Support Command, reported the
    date of its range closure as unknown. Center personnel reported converting the
    range to office space 20 years ago. However, they did not abate the range until
    December 1996. At the time of the abatement, workers found that all debris
    from the sandpit and bullet traps had been removed. The air exhaust unit had
    also been removed. Documentation to show who removed the equipment or the
    lead-contaminated media, or where it went, was unavailable.

    Although USARC reported the Dardeh U .S . Army Reserve Center, Guyman,
    Oklahoma, 90th Reserve Regional Support Command, indoor range as
    “vacant,” the entire facility had actually been transferred “as is” to the city of
    Guyman, Oklahoma. The Guyman police department now uses the range for
    police training.


Reasons for Using Unsafe Ranges

    ARNG and USARC did not have a common explanation for how the policy and
    procedures governing unsafe range use broke down on a particular range.
    Senior managers recognize that lead-contaminated ranges are being used for
    other purposes, and that the subsequent exposure of personnel to lead

    contamination warrants senior management’s attention. Programs are in place
    to enforce the no-use policy for unsafe ranges, but the programs are not fully
    effective.



                                         17
Finding B. Unauthorized Range Use


      Management Oversight. Commanders and safety managers should be able to
      use safety inspection reports as management tools to determine whether indoor
      range safety programs are effective. The inspection process is supposed to
      include a full range of inspections by OSHA, EPA, State safety officers, ARNG
      safety officers, and USARC safety officers. Each part of the process has
      problems. For example, OSHA has Federal compliance offices with inspection
      responsibilities. Since 1980, OSHA standards have been applicable to Federal
      facilities. In addition, the EPA or State and local government environmental
      agencies can conduct environmental compliance inspections of indoor ranges.
      tiMilitary unique” facilities are a specific exception. While indoor range
      operations are not considered “military unique.” OSHA and EPA usually do not
      inspect military indoor firing ranges unless someone makes a complaint.

           Safety Personnel. In addition, the USARC and ARNG safety managers
      and industrial hygienists cited a lack of personnel and other resources needed to
      comply with all inspection requirements. All indoor ranges in each of the 50
      States, 3 Territories, and the District of Columbia are supposed to undergo
      periodic safety inspections, usually annually or biennially. A safety inspection
      includes a test of the ventilation system to ensure the system meets minimum
      operating standards. A safety inspection could also include testing firing lines,
      taking air lead samples while personnel are firing, and taking wipe samples to
      ensure that the range has been cleaned properly. A detailed inspection should
      be done for all ranges not considered safe, to identify all deficiencies.

      ARNG and USARC safety managers reported that they do not routinely inspect
      unsafe ranges. ARNG industrial hygienists report that they only reinspect
      unsafe ranges when specially requested or when a rehabilitated range is being
      reopened.

          Annual Inspections. The ARNG Chief, Industrial Hygiene Branch,
      reported that annual inspections depend on whether ARNG industrial hygienists
      have time to do them. Six ARNG industrial hygienists and three technicians
      work in three regional offices. The staff of 9 people is responsible for
      inspecting all indoor ranges in all 54 geographic areas. They work with
      National Guard State Area Command safety managers and occupational health
      nurses in conducting safety inspections.

      USARC officials gave a similar response, stating that USARC did not have the
      personnel to conduct safety inspections at all ranges. The 10 Army Reserve
      Regional Support Commands each have one safety officer who is responsible for
      all ranges in the region. USARC safety managers have not yet completed safety
      inspections for all unsafe ranges. As a result, USARC designated indoor ranges
      as unsafe based on old Army inspection reports and professional judgment,
      pending completion of inspections. The USARC safety officer reported that he
      is developing a safety inspection plan for the future.

      Overall supervision and oversight of the ARNG and USARC safety programs
      are inadequate to ensure that Reserve personnel do not use unsafe ranges. The
      State Adjutants General are responsible for ensuring that unsafe ranges are not
      used. However, the Chief, National Guard Bureau, is responsible for the
      overall supervision of the ARNG indoor firing range safety and occupational


                                          18
                                           Finding B. Unauthorized      Range Use


health program and for coordinating with other Headquarters, Department of the
Army, staff agencies, and the State Adjutants General on related matters, That
responsibility is vested in the Director, Army National Guard.

Since 1995, USARC has been responsible for indoor range safety programs for
USARC-owned ranges. The USARC has a more aggressive program for
closing unsafe indoor ranges and for ensuring that they are properly cleaned and
decontaminated. However, the potential for hazardous lead exposure and
contamination, as shown in our examples, indicates a need for a timely and
complete assessment of unsafe ranges and increased oversight.

    Command Emphasis. Increased command emphasis of safety policies and
management oversight can preclude unauthorized range use. Reliance on
commanders to detect and correct most unauthorized-use problems will help to
ensure better use of inspection resources to the best advantage.

Alternatives to Indoor Ranges.      Army training doctrine states that the
preferred weapons qualification method is a full-scale, standard record fire
outdoor range. An indoor small arms range can be used as an alternative
qualification course only when units do not have ready access to standard record
fire ranges. Therefore, indoor small arms ranges are used primarily for
weapons familiarization and weapons qualification practice. Today,
familiarization firing is no longer authorized for training. In addition, some
training exercises authorized for indoor ranges can be accomplished by
alternative methods. The Firearms Training Simulation systems that are already
installed in some armories and the Engagement Skills Trainers that the Army
plans to field in the near future can also be used for prequalification training and
practice. Many units are now using nearby or regional outdoor ranges for all
weapons training and qualification. If the use of outdoor ranges continues and
the use of new training technologies is optimized, the requirements for indoor
ranges and their inspection could be permanently reduced.

Storage and Training Space Shortages.       There is a space shortage at an
unknown number of reserve centers and armories where indoor ranges are
inactive because of health and safety problems. The ARNG and National Guard
State Area Commands have sought funding for a storage building construction
project, originally estimated at 1,400 storage buildings, at a cost of $65 million.
The overall storage space shortage in 1987 was estimated at 723,000 square
feet. Indoor ranges can represent between 1,020 and 2,400 square feet of
ARNG and USARC training space in a building. Examples show that unsafe
ranges were converted for use as storage space, classrooms, office space,
classified work areas, and simulator training rooms.

Range Safety Guidance.     The Army is responsible for providing overall
guidance and supervision of range safety programs. A pending revision
of Army Regulation 385-63, retitled “Range Safety,” and a new Army
Pamphlet 385-63, “Range Safety,” were in revision for 7 years and were not
published. Also, the draft of the U.S. Army Center for Health Promotion and
Preventive Medicine Technical Guide Number 206, “Indoor Firing Ranges,”
was not completed. As a result, some of the primary range safety policy and
guidance documents of the Army are either outdated or are not yet in effect.



                                     19
Finding B. Unauthorized    Range Use


      Headquarters, Department of the Army, issued a supplement to Army
      Regulation 385-63, “Policies and Procedures for Firing Ammunition for
      Training, Target Practice and Combat,” November 15, 1983, through
      Letter 385-9 l- 1, March 26, 199 1, to provide safety guidance for operating
      and maintaining Army indoor firing ranges. The Army extended that policy
      on March 26, 1993, through Headquarters, Department of the Army,
      Letter 385-93-2, but the policy and letter expired on March 26, 1995.

      On May 30, 1995, USARC issued a memorandum for USARC commanders to
      continue to abide by the Army policy in Letter 385-93-2 “until either new
      policy is issued or until Army Regulation 385-63 is revised.” The ARNG is
      relying on guidance in National Guard Regulation 385-l 5, “Safety Policy,
      Responsibilities, and Procedures for Inspection/Evaluation  and Use of ARNG
      Indoor Ranges, * March 30, 1990, which is also being revised. The ARNG also
      has several related range safety policy and procedure guidance documents that
      are still in the draft stage.


Personnel Exposure to Lead Hazards

      ARNG and USARC personnel, their families, and the general public were
      unnecessarily exposed to hazardous lead levels. ARNG and USARC safety
      managers and industrial hygienists reported that the use or conversion of unsafe
      ranges before they are decontaminated or rehabilitated endangers users and
      increases potential liabilities of senior staff.

      The use of contaminated facilities exposes reservists, ARNG personnel, civilian
      workers, and the general public to a wide variety of symptoms and disabilities
      that can be attributed to chronic lead exposure. It also exposes family members
      when personnel transport lead home on contaminated clothing or work gear.
      That danger is especially important in the potential for childhood exposure.
      According to an October 14, 1997, memorandum, issued to state safety
      managers by the Chief, Industrial Hygiene Branch, National Guard Bureau,
      “There have been cases where some ARNG personnel have allowed their
      children to play in (lead-contaminated)  sand from indoor firing range bullet
      traps. n


Recommendations           for Corrective Action

      B. 1. We recommend that the Director,     Army National Guard, and the Chief,
      U.S. Army Resen/e Command:

             a. Increase command emphasis to field units in communicating the
      potential dangers and individual responsibilities and liabilities associated with
      unauthorized use of unsafe indoor ranges.

            b. Increase management oversight in enforcing policy prohibiting      the use
      of unsafe ranges and assuring that unsafe ranges are not used.


                                           20
                                                Finding B. Unauthorized Range Use


           c. Direct safety and industrial hygiene personnel from the Army National
    Guard, the National Guard State Area Commands, the U.S. Army Reserve
    Command, and the Reserve Regional Support Commands to conduct safety
    inspections at all indoor ranges to confirm their status and to identify safety
    deficiencies.  Safety inspections should include surveys for lead contamination
    and lead hazards.

    B.2. We recommend that the Deputy Director of Army Safety complete and
    issue the revision of Department of the Army Regulation 385-63, “Range
    Safety,” and Army Pamphlet 385-63, Range Safety.” Range safety policy
    should include Army standards for testing, cleaning, and decontaminating
    indoor ranges.


Management       Comments

     The Assistant Chief of Staff for Installation Management, Department of the
     Army, concurred with the finding. He noted that both the National Guard
     Bureau and the U. S. Army Reserve Command have published guidance
     pertaining to the converted use of indoor ranges, specifically addressing the
     potential for lead contamination.


Evaluation Response

     The comments from the Assistant Chief of Staff for Installation Management,
     Department of the Army, did not address the recommendations.           We request
     that the Assistant Chief of Staff for Installation Management provide
     coordinated comments on recommendations          in response to the final report.




                                          21
            Finding C. Lead-Dust Migration Outside
            Ranges
            Hazardous levels of lead-contaminated dust have migrated from 12
            indoor ranges to other areas of readiness centers. Hazardous levels of
            lead-contaminated dust can exist outside ranges because current range
            safety policy does not require testing for or abating lead-contaminated
            dust and debris in areas outside of the immediate range area. As a
            result, persons using readiness centers have an increased risk of both
            occupational and casual exposure to high lead concentrations.


Policy Requirements        and Guidelines

     OSHA Technical Manual, Directive (Training and Education) 1.15, Section 1,
     Chapter 2, “Sampling for Surface Contamination, ” September 22, 1995, states.
     “Accumulated toxic materials can become suspended in air and may contribute
     to airborne exposures (for example, asbestos, lead, or beryllium).” Airborne
     exposures increase the likelihood of human exposure to toxic materials such as
     lead. DOD Instruction 6055.5 states that it is DOD policy to provide each
     employee with a healthful work environment that is free from recognized
     chemical, physical, or biological hazards.

     The DOD Directive 1025.1, “DOD Civilian Rifle and Pistol Marksmanship
     Training Program, ” January 3 1, 1984, encourages extending the privilege of
     using Reserve Component small-arms ranges to local police, civic
     organizations, local shooting clubs, schools, and colleges. Also, ARNG and
     local readiness center range-use policy sometimes allows readiness centers to be
     used for community, civic, and sporting events, some of which may include
     children and pregnant women. OSHA lead standards, Title 29, Code of Federal
     Regulations: Chapter 17, Part 1910.1025, “Lead,” July 1, 1995, specifically
     address lead-dust concentrations such as those found inside indoor ranges. ,

     ARNG regional industrial hygienists stated that no Armywide guidance
     addresses the migration of lead in airborne dust from indoor ranges to other
     areas in a readiness center. Only the unpublished Technical Guide
     Number 206, “Indoor Firing Ranges? n being drafted by the U. S . Army Center
     for Health Promotion and Preventive Medicine, suggests that lead concentration
     levels can exist outside a range. The industrial hygienists interviewed did not
     know of any requirement for posting warnings or placing restrictions on the use
     of areas or items outside a range known to be contaminated with high lead
     concentrations.

     The only regulatory reference indicating a need to consider the health and safety
     of persons using other areas in a readiness center is National Guard
     Regulation 385- 15, “Policy, Responsibilities, and Procedures for Inspectioni
     Evaluation and Use of Army National Guard Indoor Firing Ranges: ” March 30,
     1990, and a draft revision dated April 28, 1997. The regulation states that
     “Ranges are unsafe if air from the ranges enters adjacent rooms or buildings.”


                                         22
                                  Finding C. Lead-Dust Migration Outside Ranges


    The draft revision states that older indoor firing ranges may not meet the current
    standards for protecting the health and safety of shooters. In addition, two
    questions in the Range Inspection Checklist in the draft revision relate to
    possible lead migration into other areas.

    The first question calls for inspection of pipes, conduits, and walls to determine
    whether they are “sealed to prevent leakage of lead-dust from the range into
    other areas. n The other question asks whether the entrance door to the range
    has been weather-stripped, presumably to prevent leakage of lead-contaminated
    air out of the range. The industrial hygienist who wrote the draft stated that
    such leakage of lead dust was most likely to occur when range ventilation
    systems did not generate an adequate airflow velocity to create a measurable
    negative air pressure in relation to areas outside the range.


Lead Exposure in Areas Outside Ranges
    Several factors indicated that lead had migrated to areas outside the indoor
    ranges. For example, safety officials designated a range and two other rooms in
    an ARNG readiness center in Schenectady, New York, as “unsafe” because of
    inadequate ventilation. They closed all three rooms to prevent their use and to
    limit personnel exposure to potentially toxic lead concentrations.

    An ARNG regional industrial hygienist and a New York State safety specialist
    reported that they found high lead-dust concentrations outside the range and in
    areas not closed to use. Contamination as high as 6,642 micrograms per square
    foot was on surfaces in a room containing nuclear, biological, and chemical
    defense masks and in a room containing communications equipment. The
    highest concentration of contaminated dust, 12,839 micrograms per square foot,
    was on a ventilation grill near the dining facility. A lead-dust concentration
    above 200 micrograms per square foot establishes a potential lead hazard.

    During a followup visit 6 months later, the ventilation grill was still
    contaminated with lead concentration levels of 3,632 micrograms per square
    foot. The case study in Appendix D also describes an example of a lead
    concentration level of 3,558 micrograms per square foot in an area outside a
    range that was decontaminated and converted to a store room for medical
    equrpment and supplies.

    A review of the ARNG indoor-range rehabilitation project files, described in
    Finding D in this report, also indicates a problem with lead migration outside
    the immediate range area. Some of the range rehabilitation funding requests
    include installing new metal doors “to prevent leakage of lead-contaminated air
    out of the range as well as for added range security. *

    In addition, analysis of the contract files for the 11 inactive range
    decontamination and demolition projects in the 99th Reserve Regional Support
    Command, referenced in Finding B, revealed that lead dust had migrated to
    areas outside the range in all 11 projects. At one project location, wipe sample
    results showed contaminated lead dust exceeding 3 million micrograms per
    square foot. Outside the range, contaminated lead dust, in concenrrations


                                         23
Finding C. Lead-Dust Migration Outside Ranges


      greater than 200 micrograms per square foot, had migrated from the range to
      the kitchen and a clothing-issue room. In two other ranges, lead-dust
      concentrations exceeded 1 million micrograms per square foot. Inspectors
      found lead-dust levels as high as 160,000 micrograms per square foot on floors,
      furniture, and air ducts in storerooms, assembly halls. hallways, and the tops of
      staircases near the two ranges.

      The 99th Reserve Regional Support Command paid the contractor an additional
      amount ranging from $13,500 to $38,350 to decontaminate or dispose of items
      stored outside the indoor ranges. Contaminated items included furniture.
      uniforms, sleeping bags, duffel bags, documents, boxes, and other items stored
      in areas adjacent to five of the US ARC ranges.


Policy Guidance

      Range safety programs do not include policy and guidance addressing the
      migration of lead contamination to areas outside the indoor ranges. ARNG
      safety managers and industrial hygienists are not required to regularly sample
      surfaces outside the range to determine the levels of lead contamination. The
      industrial hygienists contacted stated that they relied on their own professional
      judgment and initiative to determine whether wipe sample testing was
      appropriate for areas outside of the ranges. However, none of the examples
      of funding requests for ARNG range rehabilitation projects, described in
       Finding B, includes an amount for testing or decontaminating areas or items
      outside the ranges that were remodeled to comply with current health and safety
       standards. The industrial hygienists contacted agreed that additional guidance
       should be published on the potential for lead-dust migration to other areas in
       readiness centers and on the hazards to military and civilian persons who use
       readiness centers with ranges classified as unsafe.


Effects of Lead-Dust Migration

      ARNG or USARC personnel and civilians using areas of a readiness center that
      have an unsafe indoor range may be at risk of unknowingly getting lead dust on
      their hands or clothing. They may also cause lead-dust concentrations to
      become airborne in the normal course of their activities and may inhale or ingest
      the lead dust.


Recommendations           for Corrective Action

       C. 1. We recommend that the Director, Army National Guard, and the Chief,
       U .S. Army_Reserve Command, issue guidance requiring lead-contamination
       surveys to Identify lead migration outside the immediate range area during range
       inspections and, where necessary, abate lead hazards.



                                          24
                                   Finding C. Lead-Dust Migration Outside Ranges


    C.2. We recommend that the Deputy Director of Army Safety include a
    requirement in range safety policy and procedures for regular inspections. tests,
    and abatement of hazardous levels of lead-contaminated dust and debris in areas
    outside of the immediate indoor range.


Management Comments

     The Assistant Chief of Staff for Installation   Management,   Department   of the
     Army, concurred with the finding.


Evaluation Response

     The comments from the Assistant Chief of Staff for Installation Management.
     Department of the Arrny. did not specifically address the recommendations.
     Therefore, we request the Assistant Chief of Staff for Installation Management
     to provide comments on the recommendations.




                                           25
              Finding D. Unfunded Requirements
              Unsafe ARNG and USARC indoor ranges represent an undefined and
              unfunded fiscal requirement for rehabilitation or for decontaminating
              unsafe ranges for closure or conversion. Most unsafe ranges have not been
              rehabilitated, closed, or converted because ARNG and USARC did not
              determine or program funding requirements. As a result, an estimated 982
              (65 percent) of I .5 19 ARNG and USAEK small arms indoor firing ranges
              &e unsafe &d unusable.


Funding for Rehabilitation,             Conversion,       and Closure

     ARNG and USARC officials report the following three acceptable dispositions
     for unsafe indoor ranges:

          l     rehabilitate unsafe ranges for continued use for small arms training;

          0     clean and decontaminate unsafe ranges so they can be closed and the
                space converted to other functional uses, or

          l     lock, post warnings,   and “walk away.”

     Whatever the disposition, unsafe ranges must be decontaminated before they can
     be safely rehabilitated and reused, closed, or converted to other functional uses
     such as storage areas, classrooms, or simulator rooms. However, when an
     unsafe range is not rehabilitated, closed, or converted, current range safety
     policy does not require that it be tested for contamination, cleaned, or
     decontaminated. In such cases, some ARNG and DOD officials suggest that
     they can lock, post warnings, and “walk away” from many unsafe ranges
     until resources are available for further action. Unsafe ranges reportedly can
     remain inactive indefinitely. Some ranges reviewed were inactive for 5, 10, or
     15 years. As discussed in Finding B, the risk of unauthorized use and
     subsequent hazardous exposure of personnel continues over time.

     Although the individual National Guard State Area Commands may use training
     or operations and maintenance funds to do minor range rehabilitation projects.
     major rehabilitation projects have been federally funded. In addition, the costs
     incurred for lead cleanup for range rehabilitation projects, either as part of an
     Army Indoor Range Rehabilitation project or overall armory rehabilitation or
     addition, are completely reimbursable by the Federal Government. Range
     cleanup, decontamination, and conversion costs for USARC unsafe ranges and
     for federally owned ARNG unsafe ranges are federally funded. When
     approved, USARC policy says that permanent closure and conversion costs are
     supportable with Federal environmental funds and Real Property Maintenance
     funds.

     National Guard State Area Commands are responsible for funding lead cleanup
     and decontamination for range conversions at State-owned facilities. They must
     also fund all costs associated with the conversion, such as shelves and lighting


                                           26
                                          Finding D. Unfunded     Requirements


for a storage area. Responsibility for funding permanent closure at State-owned
ARNG facilities has not been fully determined. Part of the Federal-versus-State
debate over funding responsibility includes determining when the range was
contaminated and whether the contamination occurred as part of State or Federal
activities.

Unsafe indoor firing ranges that are needed to meet a valid mission requirement
must be rehabilitated to be used safely. Operations and Maintenance funds can
be used for minor range rehabilitation and construction projects. However.
major project costs for State-owned facilities are done either on a shared cost
basis or are federally funded. According to National Guard Regulation 38.5-15,
funding requests for upgrading existing ranges are considered on an individual a
basis.

Range Rehabilitation.      Returning unsafe ranges to functional training use has
not been a funding priority. As discussed in Finding A, ARNG identified a
need for Federal funding to rehabilitate as many as 1,100 indoor ranges in
1985. In FY 1989 through 1995, ARNG funded 65 indoor range rehabilitation
projects at a total cost of $7.9 million. The ARNG terminated the Armory
Indoor Range Rehabilitation Project at the end of FY 1995 because of decreases
in Army Military Construction funding. According to the Chief of Installationst
National Guard Bureau, Range rehabilitation is an extremely low priority item
when compared to other needs. ” As a result, only a few ARNG unsafe ranges
are rehabilitated each year.

Range rehabilitation projects usually include correcting environmental
conditions and removing hazardous lead-particle contamination. The OSHA,
EPA, and, sometimes, local and State agencies require removal of lead
particulate and residue caused by range operations before construction or
renovation. Regulations focus primarily on the collection and disposal of
contaminated soil used in the firing lanes near the bullet trap and on cleaning
and disposing of lead-dust found on floors, walls, furniture, and ancillary
equipment. Decontamination ensures that the indoor firing range is as free of
lead as possible before construction begins.

Rehabilitation projects may include the installation of ventilation systems, air
exhaust systems, and adequate bullet traps and acoustical treatments. In some
cases, ranges must undergo design changes as well. Rehabilitation projects are
carried out only for ranges that are still needed to meet a valid, continuing
small-arms training mission because alternative, nearby ranges are not available.

Closure or Conversion.      Funding for decontaminating ranges to be converted
to other uses is also limited and is determined on a case-by-case basis for
USARC and federally owned ARNG facilities. Lead cleanup for range
conversion at State-owned facilities, regardless of the project type, is fully
funded by the State. While indoor ranges can simply be closed, conversion to
other functional uses is sometimes a better alternative. Closing a lead-
contaminated range requires that the range undergo specific cleaning and
abatement measures to ensure that it is as free of lead-dust and contaminated soil
as possible before alternative use.




                                    27
Finding D. Unfunded Requirements


      Lock and Walk Away. Officials at ARNG, USARC, and the Office of the
      Assistant Secretary of Defense (Reserve Affairs) state that they have no impetus
      to fund the rehabilitation, conversion, or closure of all unsafe indoor ranges,
      and they believe that they can leave unsafe ranges inactive, indefinitely, and at
      no cost. The safety records and the funding history of unsafe ranges show that
      the practice exists, Officials stated that unsafe ranges pose no health or safety
      risks because no one uses them. Further, they assert, unsafe indoor ranges
      present no environmental problems because lead-contaminated dust, debris, and
      sand are not considered hazardous waste until an intent is expressed to dispose
      of them.


Unfunded Requirements             for Unsafe Ranges

      Unsafe ARNG and USARC indoor ranges represent an undefined and unfunded
      fiscal requirement for rehabilitation or for cleaning and decontamination for
      closure or conversion. Most unsafe ranges have not been rehabilitated, closed,
      or converted because ARNG and USARC did not determine or program funding
      requirements. based on current costs. The costs can be reasonably estimated
      only after a decision has been made to rehabilitate, close. or convert the ranges,
      either collectively or on a range-by-range basis. Numerous possibilities exist to
      address the issue, including rehabilitating all ranges, closing them all, closing
      all ranges and converting the space for other functional uses, and various
      combinations of those actions that have implications for programming and
      budgeting Federal funds. DOD programming and budgeting actions in the
      Planning, Programming, and Budgeting System need ARNG and USARC plans
      addressing the proper and affordable course of action to decontaminate or close
      the current inventory of unsafe ranges.

      The following discussion shows the wide range of costs encountered by
      managers in the past and the large increase in costs for more recent projects
      Given the number of unsafe ranges and the wide range of costs, unsafe ranges
      clearly represent a significant unfunded requirement.

      Funding Requirements for Range Rehabilitation. The average cost of the 65
      ARNG rehabilitation projects funded from FYs 1989 through 1995 was
      $121,000. Costs varied from just under $11,000 to as much as $400,000.

      The most recently funded range rehabilitation project was for the indoor range
      at Sea Girt, New Jersey. The Sea Girt project, funded in FY 1995, was chosen
      by the National Guard Bureau as a test of the operational capability of a wet-
      type bullet trap to significantly reduce the amount of lead pollution resulting
      from small arms training. The cost of the range rehabilitation project contract
      was $397,506 in federal funds and $63,812 in State funds for installation of the
      new oil cascade backstop and other new equipment. The ARNG spent another
      !W,255 cleaning the range and disposing of the hazardous waste in compliance
      with the requirements of the Resource Conservation and Recovery Act.
      According to ARNG officials, the total cost of approximately $508,000 for the
      Sea Girt project is more typical of range rehabilitation projects today than the
      average cost of


                                           28
                                           Finding D. Unfunded Requirements


S121,OOfor the last 65 rehabilitation projects because of the cost of new
technology and the rapid rise in costs that are directly related to hazardous lead-
dust and debris disposal.

At the time of this evaluation, USARC officials had no plans to rehabilitate
unsafe indoor ranges. Instead, USARC officials claimed that the command was
proposing to “get out of the indoor range business.” They cited escalating
safety and environmental costs and the availability of alternative training
methods and devices as reasons for no longer needing indoor ranges to meet the
USARC small-arms training mission.

However, if unsafe ranges were to be rehabilitated, the costs could be estimated
from the costs of the 65 ARNG rehabilitation projects. Those costs would
probably range between $121,000 and $508,000 per indoor range.

Funding Requirements for Cleanup and Abatement. To safely close or
convert an indoor range, it must be properly cleaned and abated. Abatement
means any measure or set of measures designed to permanently eliminate a lead
hazard. National Guard Pamphlet 385-16, “Guidelines for Converting Indoor
Firing Ranges to Other Uses,” January 31, 1994, prescribes ARNG policy,
responsibilities, and procedures for converting lead-contaminated ranges. The
pamphlet also contains guidance for National Guard State Area Commands
wanting to convert an indoor firing range to another functional use, such as
storage or other office space.

Converting an indoor range to other uses includes the cost of cleaning (for
example, High Efficiency Particulate Air vacuuming and removing and cleaning
equipment and furnishings); the cost of decontaminating (for example, removing
and disposing of contaminated soil and lead-dust); and the cost of converting
(for example, storage shelves, reconfiguring rooms, and similar items). The
cost of cleaning and abating an unsafe range varies considerably and is really
based on the level of contamination and whether lead waste can be managed in-
place or whether it must be loaded into containers and disposed of as hazardous
material. Costs also vary depending on whether cleaning and abatement
services are done by Reserve or Guard employees or by a contractor.

Actual cleaning and abatement projects reviewed showed a wide range of costs
from as little as $3,500 and up to $120,000. For example, Appendix D
contains a case study of a cleanup and abatement project at an unsafe range in
the National Guard readiness center in Cottage Grove, Minnesota, that cost only
$3,500. Costs for this project included cleanup and lead abatement that were
done completely by ARNG employees. The project did not require hazardous
waste disposal off-site. The ARNG industrial hygienist who classified the range
as .unsafe stated that low-cost, in-house range abatement and conversion projects
could be successful if an industrial hygienist provided on-site training and
oversight of the work.

Of the 65 range rehabilitation projects, only two projects were examples of
actual cleanup and abatement costs. First, the range rehabilitation project file
for the Kewanee, Illinois, readiness center included a cost of $81,000 for range
cleanup, disposal of lead-contaminated sand from the bullet trap, and asbestos
abatement. The data did not indicate whether costs included pre- and post-


                                     29
Finding D. Unfunded Requirements


      construction wipe sampling. Second, the Sea Girt, New Jersey, range
      rehabilitation project included an additional $46,255 spent for range cleanup and
      abatement.

      In 1996, the ARNG Hazardous Waste Manager reportedly funded 40 lead
      decontamination projects in 8 States. From 1994 through 1996, costs varied
      from $3,500 to $120,000 per project for lead-sand disposal, which he estimated
      averaged about $60,000 per project. However, he said that his estimates
      included only the cost of disposing of lead-contaminated sand after it had been
      containerized; it did not include other cleaning and abatement costs.

      USARC cleanup and abatement projects had significant cost variations.
      USARC-ENS-C (140) policy memorandum, “USARC Policy With Regards to
      Indoor Firing Ranges, n April 27, 1993, provides guidance for converting
      indoor ranges, and it states that a command can request conversion of an indoor
      range when it finds that the range is no longer needed to meet a mission
      requirement or when the range is unsuitable for use based on environmental
      documentation. When approved, a command can convert an unsafe range to
      office space, supply rooms, classrooms, or a classified work area.

      Although USARC does not have a policy establishing standards for
      decontaminating indoor ranges, the USARC Environmental Division developed
      a generic statement of work that detailed standards and procedures for range
      closure and conversion to be used for contracting abatement services. The
      statement of work establishes clearance standards for specified surfaces.
      USARC officials stated that cleanup and decontamination costs average
      approximately $50,000 to $60,000 per range, including the cost of hazardous
      waste disposal.

      However, recent USARC projects showed the average cost to be higher. A
      review of 1995 contracts awarded to decontaminate 11 indoor ranges for the
      99th Reserve Regional Support Command showed that the cost for the 11 ranges
      averaged $117,000, which included approximately $8 1,000 in contracted
      decontamination costs and $36,000 in Government overhead costs. Total costs
      of contracting for cleaning and abatement services at all 982 USARC and
      ARNG indoor ranges for permanent closure would be substantial. Costs to
      convert to other uses would be in addition to the cost of lead abatement and
      decontamination.

      Lock, Post, or Seal. The option of locking or sealing, posting, and walking
      away from unsafe ranges appears to represent the lowest cost: short-term
      solution for unsafe ranges at a time when funding is limited. The option
      presumes that ARNG and USARC personnel will not use unsafe range space
      and that the space is not needed for other training needs. This option ignores
      the hazards of toxic lead that may have migrated out of the range. The
      approach does not prevent or minimize costs, however; it simply pushes costs
      into the future when costs are most likely to be higher. The costs of
      decontamination have risen in the last few years, and much of that increase
      resulted from the costs of hazardous waste disposal. Changes in regulatory
      requirements could also cause costs to rise. In addition, an armory may
      eventually become the property of the community and the ARNG must abate a111
      known hazards before giving it to the community.     Allowing a lead hazard to

                                          30
                                              Finding D. Unfunded Requirements


    exist only leaves the ARNG and the USARC open to future liabilities in the
    event a contaminated area is entered, contaminated items are removed. and
    other areas of the building are contaminated. The Army should initiate action to
    develop and identify low-cost procedures and technologies that will effectively
    abate contaminated areas to permanently eliminate lead hazards.


ARNG and USARC Range Safety
    Many ARNG indoor firing ranges are of me-World War II vintage and are not
    designed or equipped to meet current OSHA and Army safety standards.
    Similarly, USARC built many of its indoor ranges between 1940 and 1966, and
    a number of those ranges do not meet current safety requirements. Even some
    of the newer and more standardized ranges lack the equipment and engineering
    controls that they need to comply with current Federal and State regulatory
    requirements.

    Collectively, ARNG and USARC safety officials state that 982 (65 percent) of
    an estimated 1,5 19 indoor ranges are currently unsafe and unusable until they
    are decontaminated. Indoor ranges reportedly remain unsafe, sometimes for
    years, because they have not been permanently closed, converted to other uses.
    or rehabilitated for continued use for small arms training. As discussed in
    Finding B, the risks of unauthorized use and hazardous personnel exposures
    continue over time. Until cleanup occurs, training and storage space is not
    available for use. Constrained resources. inadequate problem identification. and
    lack of reasonable requirements definition continue to complicate the resolution
    of the issues.


Recommendations for Corrective Action
    D. We recommend that the Director, Army National Guard, and the Chief,
    U.S. Army Reserve Command:

          1. Direct completion of current risk assessments on all unsafe indoor
    ranges.

              a. Base the risk assessments, in part. on the results of the lead
    contamination surveys recommended in Finding B.

               b. Use resulting data to estimate total funding requirements based on
     current costs to rehabilitate, decontaminate and close, or convert all unsafe
     indoor ranges, or any combination of those actions required.

           2. Develop an overall cost-effective plan of action and milestones for
     reducing and effectively controlling the number of unsafe indoor ranges.

          3. Initiate action to develop or identify low-cost technologies and
     methodologies for decontaminating ranges.



                                        31
Finding D. Unfunded    Requirements


            4. In coordination with the Assistant Chief of Staff for Installation
      Management, Department of the Army, enter the status of each range,
      determined as a result of Recommendation D . 1. actions, into the Installation
      Status Report.


Management        Comments

      The Assistant Chief of Staff for Installation Management, Department of the
      Army, concurred with the finding.


Evaluation Response

      The comments from the Assistant Chief of Staff for Installation Management,
      Department of the Army. did not respond to the recommendations. In response
      to the final report, we request the Assistant Chief of Staff for Installation
      Management to provide comments on the recommendations.




                                           32
Part II - Additional Information
Appendix A. Evaluation Process


Scope and Methodology

    Work Performed. We reviewed a list of 1,5 19 ARNG and USARC
    small-arms indoor range inventory data gathered and provided in response to
    our July 2, 1997, request; range safety survey reports that National Guard
    Bureau industrial specialists and contractors prepared from 1994 through 1997;
    range rehabilitation and modernization program budget submissions and
    authorizations from FYs 1989 through 1995; and range rehabilitation project
    data, as well as range rehabilitation and decontamination contract documents
    prepared from 1994 through 1997. We visited 21 indoor ranges in Tennessee,
    Texas, Georgia, and New Jersey. We also reviewed environmental laws; EPA
    lead and other hazardous waste regulations; occupational safety and health laws;
    OSHA regulations; and DOD, Army, and ARNG range safety and property
    management directives, regulations, policies, and procedures. Our analysis
    included a review of reports and surveys on indoor firing range management
    issues dating from 1980 to the present.

    Limitations to Evaluation Scope. Because of the large number of indoor
    ranges believed to be in the ARNG and USARC inventory, as compared with
    the Reserve Components of the Air Force, the Marine Corps, and the Navy,
    this report addresses range issues in only the ARNG and USARC. We focused
    on determining whether ARNG and USARC were developing and managing
    inventory data for small-arms indoor ranges and whether they were adequately
    assuring the safety and health of ARNG and USARC employees and private
    citizens working in and around those ranges in accordance with applicable laws,
    regulations, and other published guidance. We also assessed the adequacy of
    published guidance.

    DOD-wide Corporate Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Department of Defense has established 6 DOD-wide corporate level performance
    objectives and 14 goals for meeting these objectives. This report pertains to
    achievement of the following objective and goal:

              Objective: Maintain highly ready joint forces to perform the full
              spectrum of military activities. Goal: Maintain high military
              personnel and unit readiness. (DOD-5.1)

    DOD Functional Area Reform Goals. Most major DOD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals:

        l   Environment Functional Area. Objective: Reduce, in a
            cost-effective manner, risks to human health and the environment
            attributable to contamination resulting from past DOD activities.


                                        34
                                             Appendix A. Evaluation Process


          Goal: Identify, evaluate, and, where appropriate, remediate
          contamination resulting from past DOD activities. (ENV-1.1)

          Goal: Ensure immediate action to remove imminent threats to human
          health and the environment. (ENV-1.2)

          Goal: Comply with statutes, regulations, Executive Orders, and
          other legal requirements governing cleanup of contamination.
          (ENV-1.3)

    l   Environment Functional Area. Objective: Implement pollution
        prevention programs throughout the DOD.

          Goal: By the end of 1999, reduce disposal of hazardous waste 50
          percent from the 1992 baseline (amount of hazardous waste disposal
          will be measured and reported in pounds). (ENV-3.2)

General Accounting Office High Risk Area. The General Accounting Office
has identified several high risk areas in the DOD. This report provides coverage
of the Defense Infrastructure Management high risk area.

Use of Computer-Processed Data. We relied on computer-processed data to
evaluate the accuracy of the number of ARNG and USARC indoor ranges in the
ARNG Desktop Resource for Real Property database and the Department of the
Army Integrated Facility System-Management and Installation Status Report
databases. We compared the contents of the inventory lists provided with the
contents of the listings generated from the National Guard Bureau’s Desktop
Resource for Real Property and the Army Integrated Facility System-
Management and Installation Status Report databases. The computer-processed
data from those databases did not provide managers with current, accurate, and
complete information on the number, location, status, and disposition of ARNG
and USARC indoor ranges.

Evaluation Type, Dates, and Standards. We performed this evaluation from
June through December 1997 in accordance with standards issued and
implemented by the Inspector General, DOD. Accordingly, we included tests of
management controls considered necessary.

Contacts During the Evaluation. We visited or contacted individuals and
organizations within DOD and EPA, OSHA, and the National Institute of
Occupational Safety and Health. Interviews with personnel at Firearms
Training Systems, Inc., Atlanta, Georgia, and the Army Marksmanship Unit
provided the team with insight on the capabilities of marksmanship training
simulators and other devices used to accomplish tasks in small arms training
strategies. Further details are available on request.

Summary of Prior Coverage. No prior audits or reviews have been done on
indoor ranges within the last 5 years.




                                   35
Armendix A. Evaluation Process


Management Control Program Review

      DOD Directive 5010.38, “Management Control (MC) Program,” August 26.
      1996, requires DOD organizations to implement a comprehensive system of
      management controls that provide reasonable assurance that programs are
      operating as intended and to evaluate the adequacy of those controls.

      Scope of Review of the Management Control Program. We reviewed the
      adequacy of management controls to ensure that senior managers know the
      number, location, status, and disposition of their small-arms, live-fire indoor
      range infrastructures. Working from data on the status of ranges, we assessed
      the extent to which management has been able to lay out programmatic and
      budgetary responses to EPA and OSHA requirements as well as management
      practices to protect personnel from the health consequences of ranges deemed
      unsafe by EPA and OSHA criteria. We collected information on management
      controls and procedures to determine their effectiveness in identifying resource
      requirements created by noncompliance with EPA and OSHA regulations.

      Adequacy of Management Controls. We identified material management
      control weaknesses for the Army National Guard and Army Reserve as defined
      by DOD Directive 5010.38. Management controls were either not used, not in
      place, or inadequate to ensure the efficient and safe use of indoor small arms
      ranges. Shortcomings exist in controls over the collection of basic information
      on the number, location, status, and disposition of each indoor range as well as
      in dealing with the consequences of lead contamination. All recommendations in
      the report, if implemented, will improve the ARNG and USARC management
      controls of those weaknesses. A copy of this report will be provided to the
      senior official responsible for management controls in ARNG and USARC.

      Adequacy of Management’s Self-Evaluation. ARNG and USARC officials
      did not identify management of small-arms live-fire indoor range infrastructure
      as an assessable unit and, therefore, did not identify or report the material
      management control weaknesses identified by the evaluation.




                                          36
Appendix B. Lead Hazards and Standards
   DOD personnel and others who use unsafe indoor ranges may be exposed to
   unhealthy levels of lead. Children can also be exposed to lead when parents
   bring contaminated items home. The human body can absorb lead by inhalation
   and ingestion.

   When lead is scattered in the air as a dust, fume, or mist, the metal is easily
   inhaled and absorbed though the lungs and upper respiratory tract. Inhalation of
   airborne lead is generally the most important source of occupational lead
   absorption. Indoor firing range personnel and construction workers can absorb
   lead through the digestive system if lead gets in their mouths and is swallowed.
   Using lead-contaminated food, cigarettes, chewing tobacco, equipment,
   clothing, and make-up, or handling such lead-contaminated items, provide
   major pathways for the ingestion of lead.

   Most absorbed lead is deposited in the bones (90 percent) and may be released
   over time. Lead has a 30-year half life in humans. Exposure to lead results in
   decreased libido, impotence, and sterility in men and decreased fertility and
   abnormal menstrual and ovarian cycles in women. The course of pregnancy is
   adversely affected by exposure to lead. Conclusive evidence exists of
   miscarriage and stillbirth in women who were exposed to lead or whose
   husbands were exposed. Children born of parents either of whom were exposed
   to lead are more likely to have birth defects, mental retardation, or behavioral
   disorders, or to die during the first year of childhood.

   Because of the severity of the hazard and the potential for airborne lead
   contamination, active indoor firing ranges must be periodically cleaned to
   remove lead dust, lead fragments, and contaminated soil. Active indoor firing
   ranges also must meet OSHA and National Institute of Occupational Safety and
   Health standards for air quality and for ensuri?g range personnel health and
   safety. Those standards require medical surveillance of all permanent range
   personnel so that blood levels do not exceed established permissible exposure
   levels.

   OSHA, EPA, and Department of Housing and Urban Development Lead
   Safety Standards and Criteria. Lead-related regulations come from three
   main bodies. The OSHA, the National Institute of Occupational Safety and
   Health, the EPA, and the Department of Housing and Urban Development.
   OSHA focuses mainly on worker safety, while EPA regulates ecological and
   environmental conditions. The Department of Housing and Urban Development
   focuses primarily on federally owned and funded housing. In many instances,
   regulations from the organizations overlap.

        Airborne Lead Exposure Levels. When lead is absorbed into the body in
   certain doses, it is a toxic substance. The 29 Code of Federal Reelations Part
   1910.1025 specify OSHA standards for all occupational exposure to lead, and
   they establish a Permissible Exposure Level for airborne concentrations of lead.
   The objective of the lead standard is to prevent absorption of harmful quantities
   of lead. All employers must ensure that no employee is exposed to lead


                                       37
Appendix B. Lead Hazards and Standards


      concentrations greater than 50 micrograms per cubic meter of air, which is the
      highest level of lead in air to which any employee may be permissibly exposed
      over an 8-hour work day. An 8-hour exposure standard permits short exposures
      above the Permissible Exposure Level as long as the exposure does not exceed
      50 micrograms of lead per cubic meter of air.

      If lead is present in the workplace in any quantity, the employer is required to
      make an initial determination of whether the action level is exceeded for any
      employee. The 29 Code of Federal Regulations Part 1910.1025 standard also
      estabhshes an action level of 30 micrograms per cubic meter of air, time
      weighted average, based on an 8-hour work day. The action level initiates
      several requirements, such as exposure monitoring, medical surveillance, and
      training and education. Employers are responsible for developing controls to
      meet the compliance standards for employees exposed to lead concentrations
      above the permissible exposure level for less than 30 days per year. Employers
      are also required to implement engineering controls, such as ventilation systems
      and work-practice controls, to reduce airborne lead exposures to below
      permissible levels.

      The OSHA lead standard, 29 Code of Federal Regulations Part 1910.10251 does
      not specifically address indoor firing ranges. The National Institute for
      Occupational Safety and Health developed exposure standards guidance based
      primarily on the Action Level of the OSHA lead standard. The Action Level is
      30 micrograms per cubic meter and the Permissible Exposure Level is 50
      micrograms per cubic meter. When exposure to lead is not controlled below the
      permissible level by other means, employers must provide and require the use
      of respirators during exposure times. These two standards are based on a
      time-weighted average to account for variations in the length of the normal
      8-hour work period. Many indoor ranges received “unsafe” classifications
      because airborne lead concentrations exceeded the Action Level for airborne
      lead.

           Surface Lead Exposure Levels. EPA rules that identify lead-based paint
      hazards, including lead-contaminated dust and lead-contaminated soils, are in 40
      Code of Federal Regulations Part 745.220 through 745.237. A lead-based paint
      hazard is any condition that causes exposure to lead from lead-contaminated
      dust, lead-contaminated soil, or lead-contaminated paint that has deteriorated or
      is present on surfaces, which would result in adverse human health effects. The
      rules establish dust concentration levels measured by wipe samples (dust lead
      loading), which are dependent on both the amounts of collectable dust on a
      surface and concentrations of lead in the dust. High values for either of these
      factors could produce high lead levels in wipe-sample results.

      “EPA Guidance On Identification of Lead-Based Paint Hazards,” September 11,
      1995, specifies surface clearance criteria for lead of below 100 micrograms per
      square foot for uncarpeted floor surfaces. Abatement actions must be taken
      when the results of wipe sampling show a surface lead level at or above 100
      micrograms per square foot for uncarpeted floor surfaces. The standard was
      200 micrograms per square foot for floor surfaces, but because technology now
      allows for more effective cleaning, the standard is more stringent. EPA did not
      develop clearance standards to identify adult lead-hazard levels, developing
      instead standards to identify children’s lead-poisoning hazards.


                                          38
                                   Armendix B. Lead Hazards and Standards


In the absence of National Institute of Occupational Safety and Health
standards, the EPA clearance criteria are used to interpret wipe sampling and to
identify lead-based hazards and lead exposure sources. They are also used to
determine the need for control actions. The criteria were established to protect
children and pregnant women. At the time of this evaluation, surface lead
concentrations above 200 micrograms per square foot on any range surface were
considered a potential health hazard by ARNG and USARC safety officials and
industrial hygienists.

     Hazardous Waste Disposal. The EPA also regulates all areas of
environmental protection, including disposal of hazardous waste. Many Federal
environmental statutes establish a Federal-State regulatory program in which the
State can enact and enforce environmental laws as long as the laws meet or
exceed Federal standards. When an indoor range is scheduled for rehabilitation.
closure, or conversion, and the lead residue is going to be disposed of, the lead
dust and debris must be handled, transported, and disposed of in accordance
with environmental regulations.




                                    39
Appendix C. Range Safety Standards

       Department of the Army Safety Standards. Department of the Army
       regulations for operating and maintaining indoor fring ranges pertain to both
       ARNG and USARC. Headquarters, Department of the Army, issued a
       supplement to Army Regulation 385-63, “Policies and Procedures for Firing
       Ammunition for Training, Target Practice and Combat,” November 15, 1983,
       through Letter 385-91-1, March 26, 1991, to provide safety guidance for
       operating and maintaining Army indoor firing ranges. The Army extended the
       policy on March 26, 1993 (Army Letter, 38593-2), but it expired on
       March 26, 1995. A pending revision of Army Regulation 385-63, retitled
       “Range Safety, n and a new Army Pamphlet 385-63, “Range Safety, “, are
       supposed to supersede Army Letter 385-93-2, but both documents are still in
       draft. The draft documents state that the primary concern in range safety is
       airborne lead contamination occurring as by-products of indoor firing. The
       draft documents do not address specific levels of surface lead concentrations.

       ARNG Indoor Range Safety Standards. In 1983, the Army Environmental
       Hygiene Agency conducted Industrial hygiene studies in 22 States. The studies
       showed unsafe ARNG workplace conditions, such as no ventilation systems in
       the armories.

       In 1983, the National Guard Bureau issued guidance to the National Guard State
       Area Commands prohibiting the use of indoor ranges for any purpose other than
       firing. In 1984, the National Guard Bureau issued additipnal guidance for
       inspecting and evaluating the condition of indoor ranges. In 1987, the National
       Guard Bureau began staffing the environmental and mdustrial hygiene program.

        The ARNG safety and industrial hygiene program consists of an industrial
        hygiene supervisor, six industrial hygiene professionals, and three technicians
        located in three regional offices. That small group conducts safety inspections
        for ARNG facilities in all 50 States, 3 Territories, and the District of Columbia.
        In addition, State safety managers and occupational health nurses perform range
        inspections, maintain copies of inspections, classify ranges, and ensure medical
        surveillance of firing range personnel. National Guard Bureau guidance
        requires that State personnel, perform an initial inspection to determine the status
        of each range.

        ARNG safety policy is contained in National Guard Regulation 385-15, “Safety
        Policy, Responsibilities, and Procedures for Inspection or Evaluation and Use of
        Army National Guard Indoor Firing Ranges,” March 30, 1990. The regulation
        is being revised; the most current draft is dated April 28, 1997. National Guard
        Pamphlet 385-16, “Guidelines for Converting Indoor Firing Ranges to Other
        Uses,” January 31, 1994, provides responsibilities and guidelines for converting
        indoor ranges to other functional uses. The ARNG also has several draft policy
        documents and technical guides such as Draft National Guard Pamphlet 385-14,
        “Evaluation and Maintenance of Indoor Firing Ranges, ” dated March 4, 1997,
        and Draft U.S. Army Center for Health Promotion and Preventive Medicine

! National Guard Regulation 385- 15, “Safety Policy, Responsibilities, and Procedures for Inspection or
  Evaluation and Use of Army National Guard Indoor Firing Ranges,” March 30. 1984, superseded by
 the March 30, 1990 revision, and in the revised draft, April 28, 1997
                                                   40
                                                    Appendix C. Range Safety Standards


       Technical Guide No. 206, “Indoor Firing Ranges,” October 1996, which will
       provide additional indoor-range-use guidance if it is published.

       USARC Indoor Range Safety Standards. USARC policy on range safety and
       use is contained in a series of policy memorandums.      Policy extends the
       provisions of expired Headquarters,Pepartment       of the Army, Letter 385-93-2,
       until new Army policy is published.      Letter 385-93-2 establishes guidance for
       the safe operation and maintenance of indoor ranges. In particular, it addresses
       permissible levels of airborne lead concentrations.    Indoor firing ranges must
       comply with OSHA standards, including medical surveillance of range
       personnel.    Letter 385-93-2 also sets requirements for sampling, ventilation,
       housekeeping (cleanup), and inspections.

       Inspections must be performed on a41 indoor ranges to ensure compliance with
       current health and safety standards.    According to USARC memorandum
       Armed Forces Reserve Command-Environment           and Safety-Compliance ( 140).
       “USARC Policy with Regards to Indoor Firing Ranges, ” April 27$ 1993.
       indoor firing ranges that are not needed to meet a mission requirement can be
       converted to other uses. However, Reserve personnel cannot convert an unsafe
       range to other uses until it is clean and decontaminated.




’ Armed Forces Reserve Command-Safety memorandum (385), “Inspection and Evaluation of U.S. Army
  Reserve Command Indoor Firing Ranges, n May 30, 1995.

’ Armed Forces Reserve Command-Safety memorandum (385), “Policy, Responsibilities, and Procedures
 for Inspection, Use, and Maintenance of U.S. Army Reserve Command Indoor Firing Ranges, n
 .4pril4, 1994.




                                               41
Appendix D. Case Study of Range Conversion

   The following case study illustrates:

       l   an example of a low-cost range decontamination and conversion project
           performed by National Guard State Area Command employees, and

       l   the need for such projects to be closely coordinated   with safety and
           industrial hygiene officials.

   In August 1996, a private industrial hygiene contractor received a complaint
   from an employee of the Minnesota National Guard, Cottage Grove, Minnesota,
   and forwarded it to the OSHA office in Minneapolis, Minnesota. The
   complainant alleged that a lead health hazard existed at the Cottage Grove
   Armory. The complainant’s concerns involved the possible lead exposure of
   employees working in an inactive, decontaminated indoor firing range.

   According to case records, ARNG personnel used the range for active firing
   until 1991. An ARNG industrial hygienist classified the range “unsafe”
   primarily because of an inadequate air ventilation system that allowed for a
   positive air pressure inside the range. A safe range has negative air pressure
   inside the range.

   The range reportedly remained dormant until 1994, when the ARNG reportedly
   decontaminated it and converted it to a storage area for medical equipment and
   supplies. The complainant alleged that the ARNG required supply employees
   and part-time help employees to sort and move supplies from the area.
   Allegedly, the storage area still contained lead filings and dust that posed a risk
   of lead exposure when the dust and debris were disturbed.

   The complaint went to the U.S. Department of Labor, OSHA, Minneapolis,
   Minnesota, because the facility had more Federal employees than State
   employees.     Citing &some question of Federal OSHA jurisdiction,” OSHA
   referred the complaint to the Office of the Adjutant General, Minnesota
   National Guard. OSHA instructed the ARNG to post a copy of the complaint at
   the Cottage Grove Armory so that it would be readily accessible for review by
   any Federal civilian employee at the Cottage Grove facility. In addition, OSHA
   instructed ARNG to investigate the allegation and report the documented results
   to the OSHA by September 10, 1996. OSHA also instructed ARNG to make
   any necessary corrections or modifications.    Further, OSHA advised ARNG that
   *      if the anonymous complainant is a Federal technician, or if there is a
   Federal technician working at the Cottage Grove site, and that individual is
   exposed to the alleged health hazard, then he or she is covered by Part 1960 of
   Title 29, Code of Federal Regulations, ‘Basic Program Elements for Federal
   Employees Occupational Safety and Health Programs and Related Matters, ’
   October 21, 1980.”

   In responding to OSHA, the Minnesota ARNG State safety officer produced
   documentation that training center staff had decontaminated the range in 1994
   for an estimated cost of $1,000. (State employees. trained in OSHA safety


                                           42
                               Appendix D. Case Study of Range Conversion


procedures, reportedly performed the range decontamination work.) The safety
officer also forwarded the results of wipe samples, taken before and after range
decontamination, to the OSHA office in Minneapolis. Documents show that
decontamination actions significantly reduced lead concentrations in the range
area in 1994. However, wipe samples taken afterward still showed lead levels
on some surfaces above the safety level, establishing a potential for lead
hazards. Results of wipe samples showed the highest level of lead concentration
in a room outside the entrance of the range at 3,558 micrograms per square
foot. Personnel did not take wipe samples from surfaces in other areas of the
training center to determine how far lead-contaminated dust had migrated
outside the indoor range area. Also, safety personnel provided no
documentation that the lead-contaminated room outside the range entrance was
decontaminated and painted.

In keeping with ARNG policy, the Minnesota ARNG safety officer
recommended several actions to complete the range conversion and abatement.
He recommended painting the entire range and sealing the floor to encapsulate
the remaining lead. The backstop reportedly could not be decontaminated
because of the heavy concentrations of lead and the entrapment of lead in the oil
applied to the backstop surface. The safety manager recommended constructing
a wall in front of the backstop as the lowest cost alternative.

Training center staff did not implement either recommendation for completing
conversion of the range in 1994. After the 1996 complaint and later OSHA
involvement, the staff constructed the wall? as the State safety officer had
originally recommended.

ARNG employees encapsulated potential, residual lead dust by building a wall
in front of the backstop area, spray painting the acoustical panels in the ceiling
and walls, and sealing the range floors with a commercial floor sealant. The
wall cost approximately $500. The cost of applying the paint and sealant was
approximately $1,250 for both materials and labor. The final cost of the project
was approximately S3,500, which included $1,000 for the initial High
Efficiency Particulate Air vacuuming and scrubbing in 1994 and approximately
$2,500 for the encapsulation work completed in 1996.

The converted range is currently being used as a storage area and does not
appear on the list of indoor ranges provided by the ARNG Chief, IndustriaI
Hygiene, which is discussed in Finding A. Overall, the results of the range
conversion actions suggest that low-cost processes for converting other ranges
may be available.




                                    43
Appendix E. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Assistant Secretary of Defense (Health Affairs)
Deputy Under Secretary of Defense (Environmental Security)
Deputy Assistant Secretary of Defense for Reserve Affairs (Materiel and Facilities)
Director, Defense Logistics Studies Information Exchange

Department df the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Installations, Logistics, and Environment)
Inspector General, Department of the Army
Chief, U. S . Army Reserve Command
Chief, National Guard Bureau
Director, Army National Guard Bureau
Assistant Chief of Staff for Installation Management
Auditor General, Department of the Army
Surgeon General, Department of the Army
Deputy Director of Army Safety
Director, Safety, Ammunition, Fire Prevention and Environment, Army Training and
   Doctrine Command,
Center for Health Promotion and Preventive Medicine

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence agency
                                                    Appendix E. Report Distribution



Non-Defense        Federal Organizations           and Individuals
Office of Management and Budget
Technical Information Center, National Security and International   Affairs Division
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal
      Justice, Committee on Government Reform and Oversight
   House Committee on National Security




                                            45
Part III - Management Comments
Assistant Chief of Staff for Installation Management,
Department of the Army, Comments




                                                                                11 JUNlpsB
         DAIM-MD




         FORDEPARTMENTOF DEFENSEINSPECTORGENERAL(AUDITING

         SUBJECT:EvaluationRepon on army NationalGuardmd U.S. Army Reserve
         ConunaodSmall Ams Indoor Firing Ranges(Prcjwt No. 70R-5044)


         1. Refew     dtaft DODIGEvaluationReport,subjecta~above (EncI I).

         2. TheAssistant Chief of Stat?for Installationh4anagemixthas reviewed the reference
         reportand has coordinatedthis rqonse *itb appropriateArmy Staff and Major
         commands. c ommem5coxeroing each recommendatia are provided below:

           a FindingA, Accuracy ofIndoorRangeInventoryData. Concur with the f&ii as
         written. It should be noted that stxte owned NationalGuard facilities are not subjta to
         federaIand U.S. hy reportingrequirementssod are nor included in the .&-my’sReal
         Ropatr lnvenrory.

           b. FindingB, LhauthorizedRarqe UK. Concurwith the finding as witteo. Both tie
         NationalGuardBureauand tbe United States&my ReserveCommandhave published
         guidanceperminios to the converted use of indoorranges. specifically addresing the        ’   .
         potential
                 for kad contxni&on.

           c. FindingC. Lead-DustMigrationOutsideRanges Concur with the findingas
         written.

           d. FindingD. UnfundedRequirements. Chxur with tbc findii as written.




                                   48
Assistant Chief of Staff for Installation Management, DeDartment of the Armv. Comments




              DAIM-MI)
              SUBJECT: Evaluation Report on Axmy National Guard and U.S. Army Resewe
              Command Small Arms Indoor Firing Ranges (Project No. 7’011-5044)


              3. The above responses have ‘bacn coordinated with M. Bimey, SAILE; LTC Illady.
              AFRC-t?rlY; Ms. Patterson, DAAR-EX Ms. Condon. NGB-ARC-M: Mr. Gibson.
              DACS-SF and Mr. Marrcquin, DA&I-ED-F. The ACSIM point of con*& for this action
              is Mr. Randy Klug, DAIM-MD. (7U3) 693483.




                                                         VID A. WHALEY
                                                Y

                                                      MajorGeneral, GS
                                                      Assistant Chief of Sraff
                                                       for iastallation Management




                                      49
Evaluation Team Members

The Acquisition Management Directorate, Office of the Assistant. Inspector
General for Auditing, DOD, produced this report.

Thomas F. Gimble
John C. Speedy
Lonetta F. Swanson
DavidLeising
William Bazemore
Major David Young
